<html>
<title> - LEGISLATIVE HEARING ON: H.R. 272; H.R. 353; H.R. 359; H.R. 421; H.R. 423; H.R. 1356; H.R. 1688; H.R. 1862; H.R. 2464; H.R. 2914; H.R. 2915; H.R. 3016; AND, DRAFT LEGISLATION TO AUTHORIZE VA MAJOR MEDICAL FACILITY CONSTRUCTION PROJECTS FOR FY 2015 AND TO MAKE CERTAIN IMPROVEMENTS IN THE ADMINISTRATION OF VA MEDICAL FACILITY CONSTRUCTION PROJECTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
 LEGISLATIVE HEARING ON: H.R. 272; H.R. 353; H.R. 359; H.R. 421; H.R. 
423; H.R. 1356; H.R. 1688; H.R. 1862; H.R. 2464; H.R. 2914; H.R. 2915; 
    H.R. 3016; AND, DRAFT LEGISLATION TO AUTHORIZE VA MAJOR MEDICAL 
    FACILITY CONSTRUCTION PROJECTS FOR FY 2015 AND TO MAKE CERTAIN 
IMPROVEMENTS IN THE ADMINISTRATION OF VA MEDICAL FACILITY CONSTRUCTION 
                                PROJECTS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JULY 14, 2015

                               __________

                           Serial No. 114-31

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.fdsys.gov
        
        
                               ___________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
98-686                       WASHINGTON : 2016                     
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                    DAN BENISHEK, Michigan, Chairman

GUS M. BILIRAKIS, Florida            JULIA BROWNLEY, California, 
DAVID P. ROE, Tennessee                  Ranking Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
MIKE COFFMAN, Colorado               RAUL RUIZ, California
BRAD R. WENSTRUP, Ohio               ANN M. KUSTER, New Hampshire
RALPH ABRAHAM, Louisiana             BETO O'ROURKE, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                         Tuesday, July 14, 2015

                                                                   
                                                                   
Legislative Hearing on: H.R. 272; H.R. 353; H.R. 359; H.R. 421; 
  H.R. 423; H.R. 1356; H.R. 1688; H.R. 1862; H.R. 2464; H.R. 
  2914; H.R. 2915; H.R. 3016; and, Draft Legislation to Authorize 
  VA Major Medical Facility Construction Projects for FY 2015 and 
  to Make Certain Improvements in the Administration of VA 	    
  
  								    Page
  
  Medical Facility Construction Projects.........................     1

                           OPENING STATEMENTS

Dan Benishek, Chairman...........................................     1
Julia Brownley, Ranking Member...................................     2
    Prepared Statement...........................................    39

                               WITNESSES

Hon. Tim Walberg, U.S. House of Representatives, 7th 
  Congressional District; Michigan...............................     4
    Prepared Statement...........................................    50
Hon. Steve Stivers, U.S. House of Representatives, 15th 
  Congressional District, Ohio...................................     5
    Prepared Statement...........................................    50
Hon. Kyrsten Sinema, U.S. House of Representatives, 9th 
  Congressional District, Arizona................................     7
Hon. Doug Collins, U.S. House of Representatives, 9th 
  Congressional District, Georgia................................     9
    Prepared Statement...........................................    51
Hon. Sean Duffy, U.S. House of Representatives, 7th Congressional 
  District, Wisconsin............................................    11
    Prepared Statement...........................................    53
Hon. Mike Coffman, U.S. House of Representatives, 6th 
  Congressional District, Colorado...............................    12
    Prepared Statement...........................................    54
Hon. Charles Boustany, U.S. House of Representatives, 3rd 
  Congressional District, Louisiana..............................    14
    Prepared Statement...........................................    55
Hon. Jeff Denham, U.S. House of Representatives, 10th 
  Congressional District, California.............................    15
    Prepared Statement...........................................    56
Hon. Brad Wenstrup, U.S. House of Representatives, 2nd 
  Congressional District, Ohio...................................    16
Ian de Planque, Legislative Director, American Legion............    20
    Prepared Statement...........................................    57
Adrian Atizdo, Assistant National Legislative Director, Disabled 
  American Veterans..............................................    21
    Prepared Statement...........................................    67
Carlos Fuentes, Senior Legislative Associate, National 
  Legislative Service, Veterans of Foreign Wars of the United 
  States.........................................................    23
    Prepared Statement...........................................    78
Madhulika Agarwal MD, MPH, Deputy Under Secretary for Health for 
  Policy and Services VHA, U.S. Department of Veterans Affairs 
  States and Janet P. Murphy MBA, Acting Deputy Under Secretary 
  for Health for Operations and Management, VHA, U.S. Department 
  of Veterans Affairs............................................    30
    Prepared Statement...........................................    86

    Accompanied by:

        Jessica Tanner, General Attorney, Office of General 
            Counsel, U.S. Department of Veterans Affairs

                        STATEMENT FOR THE RECORD

American Academy of Audiology and the American Speech-Language 
  Association....................................................   104
Children of Vietnam Veterans Health Alliance.....................   105
International Hearing Society....................................   106
National Medical Association.....................................   110
Paralyzed Veterans of America....................................   111
VetsFirst, a Program of the United Spinal Association............   118
Warrior Canine Connection........................................   122

 
 LEGISLATIVE HEARING ON: H.R. 272; H.R. 353; H.R. 359; H.R. 421; H.R. 
423; H.R. 1356; H.R. 1688; H.R. 1862; H.R. 2464; H.R. 2914; H.R. 2915; 
    H.R. 3016; AND, DRAFT LEGISLATION TO AUTHORIZE VA MAJOR MEDICAL 
    FACILITY CONSTRUCTION PROJECTS FOR FY 2015 AND TO MAKE CERTAIN 
IMPROVEMENTS IN THE ADMINISTRATION OF VA MEDICAL FACILITY CONSTRUCTION 
                                PROJECTS

                              ----------                              


                         Tuesday, July 14, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:31 a.m., in 
Room 334, Cannon House Office Building, Hon. Dan Benishek 
[chairman of the subcommittee] presiding.
    Present: Representatives Benishek, Bilirakis, Roe, 
Huelskamp, Coffman, Wenstrup, Abraham, Brownley, Takano, 
Kuster, and O'Rourke.
    Also Present: Representative Walz.

           OPENING STATEMENT OF CHAIRMAN DAN BENISHEK

    Dr. Benishek. The subcommittee will come to order.
    Before we begin, I would like to ask unanimous consent for 
my friend and colleague and member of the full committee, Mr. 
Walz from Minnesota, to sit on the dais and participate in 
today's proceedings. Without objection, so ordered.
    Good morning, and thank you all for joining us today as we 
discuss legislation that would impact and improve the 
healthcare provided to our veterans by the Department of 
Veterans Affairs.
    Our agenda this morning is ambitious. It includes 13 bills 
ranging in scope from ensuring quality healthcare outcomes for 
the growing number of women veterans to reforming VA's 
management of major medical facility construction projects.
    Given that we have a lengthy hearing ahead of us, I will 
limit my opening comments to discussing the bill on our agenda 
that I am proud to sponsor, H.R. 2464, the Demanding 
Accountability for Veterans Act.
    This bill would address a troubling pattern that we have 
seen repeatedly in subcommittee hearings and roundtables where 
the VA inspector general identifies a recommendation to resolve 
a serious issue, the VA fails to take appropriate action, and 
veterans suffer as a result.
    Such negligence and inaction would be unacceptable for any 
organization, but it is particularly unacceptable for a 
taxpayer funded Federal Government department that is charged 
with caring for the men and women who have served our Nation in 
uniform.
    The Demanding Accountability for Veterans Act would require 
the IG to provide the Committee on Veterans' Affairs of the 
House and the Senate with copies of all reports submitted to 
the VA to including an explanation of any changes made to the 
report that were recommended by the VA during the drafting 
process and the name of the VA employee responsible for taking 
action in response to the report's content.
    In turn, the VA will be required to promptly notify each 
named employee of his or her responsibility to take action, 
direct that the employee resolve the issue at hand, and provide 
the employee with counseling and a mitigation plan to support 
him or her in fully addressing the inspector general's 
recommendations.
    The bill would further require the VA to include an 
evaluation of whether or not the employee took appropriate 
action in his or her annual performance review, prohibit the VA 
from paying a bonus or performance award to any employee who 
failed to resolve an issue under their purview.
    An earlier version of the Demanding Accountability for 
Veterans Act passed the House resoundingly last Congress. I 
look forward to similar passage this Congress. We owe it to our 
veterans and to the taxpayers who pay VA's bills to ensure that 
poor-performing VA bureaucrats are held accountable for failing 
to provide the high-quality care that our veterans have earned 
and deserve.
    The Demanding Accountability for Veterans Act is critical 
to doing just that and I encourage all my colleagues to join me 
in supporting it.
    With that, I would like to thank all of our witnesses and 
audience members today for being here and I yield to Ranking 
Member Brownley for any opening statement she may have.

       OPENING STATEMENT OF RANKING MEMBER JULIA BROWNLEY

    Ms. Brownley. Thank you, Chairman Benishek, and thank you 
for calling this hearing today.
    These hearings are an important part of the legislative 
process. It is essential to our responsibilities to advance 
worthy legislation that addresses and improves medical services 
available to our veterans. Access to safe, quality healthcare 
is and must be the priority for the subcommittee.
    I am particularly pleased to see so many of my colleagues 
here today to testify on their legislation and I thank you so 
much for your interest in the well-being of veterans across our 
country.
    Mr. Chairman, while there are many worthy bills on the 
agenda today, I will focus on just three that are being 
considered at this hearing today.
    H.R. 421, the Classified Veterans Access to Care Act, 
introduced by Congresswoman Sinema would ensure that veterans 
with classified experiences have appropriate access to mental 
health services from the Department of Veterans Affairs.
    This bill was introduced in the last Congress and passed 
this committee as part of H.R. 4971 introduced by our 
colleague, Congressman O'Rourke. However, this bill was never 
considered by the full House, and I would like to thank the 
chairman for including it on the agenda today and would like to 
express my full support for this bill.
    I have two bills on the agenda today that I have recently 
introduced. The first one, H.R. 2914, the Build a Better VA 
Act, is a bill that would modify the current process for 
approving Department of Veterans Affairs' medical facility 
leases.
    Under current law, every major medical facility lease which 
incurs yearly rental costs of over a million dollars must be 
authorized by Congress. In addition, recent changes made to 
VA's leasing process require the VA to submit leasing proposals 
to the General Services Administration for delegation to the 
VA.
    This requires approval by the Committee on Transportation 
and Infrastructure in the House. Therefore, VA leases must be 
approved by the Transportation and Infrastructure Committee and 
be approved by Congress.
    In 2012, the Congressional Budget Office changed its method 
of scoring VA leases. Instead of scoring the annual cost of the 
lease, CBO scores now reflect the cost for the duration of the 
lease, often 20 or more years.
    For instance, CBO now scores a 20-year lease which costs 
the department $5 million a year at $100 million. Prior to 
2012, CBO's score would have reflected the true cost of $5 
million, a considerable difference.
    CBO's new scoring mechanism has made it impossible for the 
Veterans' Affairs Committee to authorize leases within the 
current budget caps despite the fact that no new money is 
actually spent. The result has been significant delays in 
leasing of new facilities, further delaying needed care for 
veterans across the country.
    The population of veterans is growing. The demand for VA 
healthcare is increasing and many veterans trying to access VA 
care face long wait times and crumbling infrastructure at 
outdated VA clinics and medical centers.
    CBO's actions have made authorizing new leases for 
veterans' medical facilities which are desperately needed in 
under-served veteran communities across the United States cost 
prohibitive.
    This bill would simply allow major medical facility leases 
to be authorized by a committee resolution rather than the 
legislation. It would return the authorization process to the 
Veterans' Affairs Committee to what it was before requiring a 
committee resolution. It would also harmonize this process with 
the requirement of the General Services Administration and the 
longstanding practice of the Transportation and Infrastructure 
Committee for federal buildings.
    This more rational approach would ensure that veterans have 
the facilities they need to get the healthcare they have earned 
and deserve and will help address the unacceptable wait times 
faced by many of our veterans.
    I have also introduced H.R. 2915, the Female Veterans 
Suicide Prevention Act. This bill would direct the secretary of 
Veterans Affairs to identify mental healthcare and suicide 
prevention programs and metrics that are effective in treating 
women veterans as part of the evaluation of such programs by 
the secretary.
    By analyzing data from 23 states and VA's suicide 
repository of more than 170,000 adult suicides over a ten-year 
period, VA researchers found in a May 2015 report that suicides 
among women veterans increased by 40 percent from 2000 to 2010 
compared to a 13 percent increase in suicide among civilian 
women.
    In fact, female veterans are nearly six times as likely as 
other women to commit suicide. My bill is intended to ensure 
that the VA addresses these tragedies by requiring that VA's 
evaluations of mental healthcare and suicide prevention 
programs include specific metrics on women veterans and by 
requiring the VA to identify the mental healthcare and suicide 
prevention programs that are the most effective and have the 
highest satisfaction rates among our female veterans.
    While I am disappointed that the department has not 
submitted views on my two bills before us today, I look forward 
to receiving those views in the not too distant future.
    Mr. Chairman, I look forward to the testimony from our 
witnesses today and their views on how to improve upon the many 
bills that we are considering. Thank you, and I yield back the 
balance of my time.

    [The prepared statement of Ranking Member Julia Brownley 
appears in the Appendix]

    Dr. Benishek. Thank you, Ms. Brownley.
    I am honored this morning to be joined by several of my 
colleagues to speak in support of their legislation. Joining us 
this morning is the Honorable Tim Walberg from Michigan; Sean 
Duffy from Wisconsin I imagine will be joining us here shortly; 
Steve Stivers from Ohio; Honorable Kyrsten Sinema from Arizona; 
the Honorable Doug Collins from Georgia; the Honorable Mike 
Coffman from Colorado; the Honorable Jeff Denham will probably 
be joining us as well; and the Honorable Charles Boustany from 
Louisiana; as well as the Honorable Brad Wenstrup from Ohio. 
Thank you all for being here today.
    Mr. Walberg, we will begin with you. You have five minutes 
to present your testimony.

  STATEMENT OF HON. TIM WALBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Walberg. Chairman Benishek, Ranking Member Brownley, 
and members of the subcommittee, I thank you for allowing me 
the time to speak this morning in support of my legislation, 
H.R. 272, the Medal of Honor Priority Care Act of 2015, which 
raises the Medal of Honor recipients to Priority 1 level of 
care, I believe to be a common-sense, I hope noncontroversial 
and certainly bipartisan piece of legislation.
    As members of this committee are well aware, the 
Congressional Medal of Honor is the highest award for valor 
which can be bestowed upon an individual serving in the United 
States Armed Forces and is awarded to soldiers who have 
displayed conspicuous gallantry and intrepidity at the risk of 
life above and beyond the call of duty.
    The Medal of Honor is a distinguished award given to a 
select few. Less than 3,500 have been awarded and 16 awards 
have gone to soldiers who fought in the recent conflicts in 
Iraq and Afghanistan. Currently there are only 79 living Medal 
of Honor recipients.
    My State of Michigan, as you know, Mr. Chairman, is 
privileged to have two living recipients. Corporal Duane E. 
Dewey and Private First Class Robert Simanek both received the 
declaration for their heroic action in the Korean War and 
hearing of the harrowing stories of bravery has reminded me of 
the sacrifices American soldiers are willing to make to protect 
their comrades and their country.
    Medal of Honor recipients are brought most appreciation and 
I believe the small portion of our servicemembers who have gone 
above and beyond the call of duty and earned the highest honor 
in our Nation's Armed Forces have earned the right to be placed 
in the top priority group to receive their healthcare benefits.
    I would be remiss if I did not mention the idea for this 
legislation came from a veteran who lives in my district and 
works with the veteran community. All veterans deserve access 
to the healthcare they have earned. But as you all know, the VA 
uses a priority system to determine eligibility for these 
healthcare services.
    Some of the factors that will affect a soldier's priority 
group ranking are whether the soldier has service-connected 
disability, whether they were a former prisoner of war, the 
time and place of service as well as income level.
    Currently Medal of Honor recipients are in Priority Group 
3. This bill is very similar to legislation approved by this 
committee during the 113th Congress. I am proud to have support 
of the VFW, Paralyzed Veterans of America, The American Legion, 
IAVA, and to once again have the support of my colleagues from 
both sides of the aisle on this bill.
    I thank the chairman for permitting me to appear before the 
subcommittee today, and I certainly would appreciate your 
support. Thank you.

    [The prepared statement of Tim Walberg appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Walberg.
    Mr. Stivers, you are recognized for five minutes.

 STATEMENT OF HON. STEVE STIVERS, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Stivers. Thank you, Mr. Chairman.
    I want to thank Chairman Benishek and Ranking Member 
Brownley for including my bill, the bipartisan Veteran Dog 
Training Therapy Act, in today's legislative hearing.
    As the committee members probably know, 22 veterans commit 
suicide every day. The ranking member just talked about her 
bill that she is working on on female suicide. This is a deeply 
personal issue for me. I am a colonel in the Ohio Army National 
Guard, served in Operation Iraqi Freedom, and I have known 
people who have sadly taken their own lives.
    This epidemic requires immediate action. I appreciate what 
you are already doing, but I know there is more we can do. The 
tie between posttraumatic stress disorder and traumatic brain 
injury and suicide is well-documented, and I know you are 
taking steps to improve treatments for both those conditions.
    However, every individual is unique and different people 
respond differently to different therapies. That is why I have 
introduced the Veterans Dog Training Therapy Act with my 
colleague, Tim Walz from Minnesota.
    Thank you for your work on this. I appreciate it.
    Our bill seeks to expand access to an alternative therapy 
that is proven effective and it works for a lot of people. 
Anybody that owns a dog knows that when you are petting your 
dog, hanging out with your dog, you know, your emotions just 
kind of ease away.
    So essentially what our bill does is it creates three to 
five pilot programs in VA facilities around the country and 
then that pilot would be studied for expansion if it works or 
elimination if it doesn't work.
    These veterans would essentially get a chance to help learn 
occupational skills while training a service dog and on 
completion of the dog's training, that dog would then be given 
to a disabled veteran for future service.
    This is not a program we made from scratch. It emulates and 
copies a very successful model of a nonprofit called the 
Warrior Canine Connection which is at several Department of 
Defense medical facilities and one VA facility already in Menlo 
Park.
    So it works and it is a model that we know will work. That 
is why we decided to copy it. Veterans that are enrolled in 
this program have shown significant improvements and I believe 
that this pilot would bear out the same results.
    And it is important to note that some of the wounded 
warriors who benefit from service dog therapy had not been 
responding to other treatments. So this is something that works 
when a lot of other things fail.
    Kaiser Permanente actually did some research on the 
effectiveness of service dogs in treating PTSD and traumatic 
brain injury related symptoms. The study has shown that 
veterans who own service dogs have fewer symptoms of PTSD and 
depression, better interpersonal relationships, and an overall 
improvement in mental health. Maybe we should get some service 
dogs in Congress.
    It should also be noted that Congress did direct a research 
study in the 2010 NDAA which was signed into law in 2009, but 
that study won't be completed until 2019. There is already 
research out here that shows this works. We need to get this in 
the field as soon as possible.
    Twenty-two suicides a day, almost one an hour. If we can do 
things to prevent it, we should not wait ten years. So that is 
why Mr. Walz and I have introduced this bill. Again, this is 
not made up from scratch. It emulates the Warrior Canine 
Connection successful model and tries to emulate it and expand 
it for the future into VA facilities.
    I met one of the dogs from Warrior Canine Connection just 
last week and, you know, when she was in the office, everybody 
was calm. These service dogs just work. And so I know that this 
bill will make a difference. I know that the study won't be 
completed until 2019, but I implore you don't wait on a study 
that we all know what it is going to say.
    And I am a little disappointed I will say in the VA study. 
They have been training these dogs as like guard dogs and that 
is not what a service dog is. They need to train them in being 
gentle and, you know, very docile. And that is what Warrior 
Canine Connection has done.
    Again, this bill will help us as we try to address some of 
these people that have traumatic brain injury and posttraumatic 
stress disorder that aren't responding to other therapies and 
it will help keep their mental health in a better state. The 
results have been proven in this Kaiser Permanente study.
    I know my time is up, but I really appreciate you hearing 
my testimony today and I hope you will take this bill and help 
us get it done because it is really important and it can really 
help save lives.
    Thank you so much. Again, I want to thank Tim Walz for his 
work on it. I want to thank the chairman and ranking member 
again for allowing me to be here. And I implore you to please 
take action on this bill. Thank you.

    [The prepared statement of Steve Stivers appears in the 
Appendix]

    Dr. Benishek. Thank you very much.
    Representative Sinema, please go ahead.

STATEMENT OF HON. KYRSTEN SINEMA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Ms. Sinema. Thank you, Chairman Benishek, and thank you, 
Ranking Member Brownley, for holding today's hearing.
    I want to first start by saying thank you to my colleagues 
who have introduced important bills to improve the quality of 
care available to veterans, especially Chairman Benishek's 
legislative, the Demanding Accountability for Veterans Act.
    We introduced this important bill together to improve 
accountability and to hold VA employees responsible for solving 
problems at the VA.
    I am here today to discuss H.R. 421, the Classified 
Veterans Access to Care Act. And thank you, Chairman Benishek, 
for allowing me time to speak today and to both the ranking 
member and the chairman for cosponsoring this legislation.
    The Classified Veterans Access to Care Act ensures that 
veterans with classified experiences can access appropriate 
mental health services at the Department of Veterans Affairs. 
Our bill directs the secretary of the VA to establish standards 
and procedures to ensure that a veteran who participated in a 
classified mission or served in a sensitive unit may access 
mental healthcare in a manner that fully accommodates the 
veteran's obligation to not improperly disclose classified 
information.
    The bill also directs the secretary to disseminate guidance 
to employees of the Veterans Health Administration including 
mental health professionals on such standards and procedures on 
how to best engage these veterans during the course of mental 
health treatment with respect to classified information.
    And, finally, this bill directs the secretary to allow 
veterans with classified experiences to self-identify so they 
can quickly receive care in an appropriate setting.
    I am working on this issue because just over two years ago, 
a veteran in my district, Sergeant Daniel Somers, failed to 
receive the care he needed and tragically lost his life to 
suicide. No veteran or family should go through the same 
tragedy that the Somers family experienced.
    Sergeant Somers was an army veteran of two tours in Iraq. 
He served on Task Force Lightning, an intelligence unit. He ran 
over 400 combat missions as a machine gunner in the turret of a 
Humvee. Part of his role required him to interrogate dozens of 
terrorist suspects and his work was deemed classified.
    Like many veterans, Daniel was haunted by the war when he 
returned home. He suffered from flashbacks, nightmares, 
depression, and additional symptoms of posttraumatic stress 
disorder made worse by a traumatic brain injury. Daniel needed 
help and he and his family asked for help.
    Unfortunately, the VA enrolled Sergeant Somers in group 
therapy sessions which Sergeant Somers could not attend for 
fear of disclosing classified information. Despite repeated 
requests for individualized counseling or some other reasonable 
accommodation to allow Sergeant Somers to receive appropriate 
care for his PTSD, the VA delayed providing Sergeant Somers 
with appropriate support and care.
    Like many, Sergeant Somers' isolation got worse when he 
transitioned to civilian life. He tried to provide for his 
family, but he was unable to work due to his disability. 
Sergeant Somers struggled with VA bureaucracy. His disability 
appeal had been pending for over two years in the system 
without resolution, but he didn't get the help he needed in 
time.
    On June 10th, 2013, Sergeant Somers wrote a letter to his 
family. In the letter, he said I am not getting better. I am 
not going to get better and I will most certainly deteriorate 
further as time goes on. He went on to say I am left with 
basically nothing, too trapped in a war to be at peace, too 
damaged to be at war, abandoned by those who would take the 
easy route and a liability to those who stick it out and thus 
deserve better. So you see, not only am I better off dead, but 
the world is better without me in it. This is what brought me 
to my actual final mission.
    Sergeant Somers' parents, Howard and Jean, were devastated 
by the loss of their son, but they bravely shared Sergeant 
Somers' story and created a mission of their own. Their mission 
is to ensure that Sergeant Somers' story brings to light 
America's deadliest war, the 22 veterans that we lose every day 
to suicide.
    Many of you have met with Howard and Jean. They are working 
closely with Congress and the VA to share their experiences 
with the VA healthcare system and find ways to improve care for 
veterans and their families.
    Our office worked closely with Howard and Jean to develop 
the Classified Veterans Access to Care Act. And if the 
committee moves this bill forward, I ask on behalf of Dr. and 
Mrs. Somers that the committee amend the title of the bill to 
the Sergeant Daniel Somers' Classified Veterans Access to Care 
Act in memory of Sergeant Somers' service and sacrifice.
    I appreciate the support this committee gave to our bill 
during the 113th Congress. I look forward to continuing to work 
with the committee to ensure that no veteran feels trapped like 
Sergeant Somers did and that all veterans have access to 
appropriate mental healthcare.
    Thank you, Chairman Benishek and Ranking Member Brownley, 
for including H.R. 421 in today's hearing. Thank you.
    Dr. Benishek. Thank you.
    Mr. Collins.

 STATEMENT OF HON. DOUG COLLINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Collins. Thank you, Mr. Chairman.
    Chairman Benishek, Ranking Member Brownley, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on H.R. 423, the Newborn Care 
Improvement Act.
    My legislation amends Title 38 of the United States Code to 
improve the care provided by the secretary of Veterans Affairs 
to newborn children. And I am very appreciative of the 
subcommittee's consideration of this legislation.
    The motto of the VA comes straight from Abraham Lincoln's 
second inaugural. He got that idea straight from scripture. So 
the challenge for us is to care for him who shall have borne 
the battle and for his widow and his orphans. This isn't new as 
we have already heard this morning.
    Since September 11th, 2011, more than a quarter of a 
million women have answered the call to serve. They face 
terrorism in the deserts and in the mountains of Iraq and 
Afghanistan. So in the 21st century, we must also consider she 
who shall have the borne the battle. When she returns, what of 
her children?
    The finest military in the world is powered by men and 
women in their physical prime. Young women who decided to serve 
this country in the Armed Forces aren't immune from the same 
questions that all young women face about whether to pursue a 
career, a family, or both, yet they are offered a healthcare 
system that for so many years has been designed to serve men.
    With the increasing number of female veterans, the VA must 
expand its care and services to meet their needs. Maternity 
care tops that list of needs and I have offered one of the ways 
that we can help.
    In 2010, Congress passed and the President signed the 
Caregivers and Veterans Omnibus Health Services Act of 2010 to 
provide short-term newborn care for women veterans who receive 
their maternity care through the VA. Signed into law on May 
5th, 2010, this legislation authorized up to seven days of 
newborn care.
    On January 27th, 2012, the Department of Veterans Affairs 
published a regulation officially amending VA's medical 
benefits package to include up to seven days of medical care 
for newborns delivered by female veterans who are receiving VA 
maternity care benefits. The rule which became effective 
December 19th applied retroactively to newborn care provided to 
eligible women vets on or after May 5th, 2011.
    Since the seven-day authorization was enacted by Congress 
in 2010, we have learned about the unique challenges facing 
female veterans and changing trends in the veterans seeking 
maternity and newborn care from the VA. According to a study 
published in the Women's Health Journal this past year, 2008 to 
2012, the overall delivery rate by female veterans utilizing VA 
maternity benefits increased by 44 percent and a majority of 
the women using VA maternity benefits had service-connected 
disability.
    Just last week, the U.S. Navy announced that it has tripled 
the amount of paid maternity leave for personnel in the navy 
and marine corps. Effective immediately, 18 weeks of maternity 
leave will be available.
    Secretary Mabus stated in a press release with increased 
maternity leave, we can demonstrate the commitment of the navy 
and marine corps to the women who are committed to serve.
    In the same way, unless Congress extends the authorization 
for length of newborn care coverage provided by the VA, there 
will be veterans who face difficult financial decisions and 
complexities in navigating insurance options at the same time 
that their newborn is fighting for their life.
    This is why I introduced H.R. 423 to demonstrate Congress's 
commitment to meeting the needs of female veterans and 
providing a little longer for their newborn care. My 
legislation extends the authorization of care from seven to 14 
days and provides for an annual report on the number of newborn 
children who receive such services during such fiscal year.
    Improved data on the trends in female veterans utilizing 
newborn care will help Congress and the VA better meet their 
needs in years to come. Should this subcommittee place my 
legislation on their markup calendar, which I hope they will 
do, I would request an amendment be adopted adding the 
reporting requirement to an existing report the VA is required 
to produce.
    Although it is vitally important that Congress and the VA 
have this data, I don't want the VA to produce yet another 
report when instead we could add this requirement to an 
existing report.
    Some may ask why the VA should provide more newborn care 
coverage to female veterans than the average private sector 
employee receives. These women have risked their lives to 
protect our Nation. Just because they are no longer serving in 
active duty does not mean that our responsibility to them ends. 
In fact, their service to our country may jeopardize the very 
lives of their future children, thus responsibility to them is 
even greater.
    A recent study examined more than 16,000 births to female 
veterans. Having PTSD in the year before delivery increased a 
woman's risk of spontaneous premature delivery by 35 percent 
research showed. This study gives us a convincing 
epidemiological basis to say that, yes, PTSD is a risk factor 
for pre-term delivery
    The study's senior author said an investigator at the March 
of Dimes prematurity research center at Stanford University 
said mothers with PTSD should be treated as having high-risk 
pregnancies. Premature infants often need longer 
hospitalizations after they are born and are more likely than 
full-term infants to die. These premature infants who survive 
may face long-term developmental problems and, unfortunately, 
the number of female veterans with PTSD is not insignificant.
    According to the VA, 20 percent of female veterans in 
conflicts in Iraq and Afghanistan have been diagnosed with PTSD 
and these are not just the female veterans serving in combat.
    And on a personal note, I know what it is like to be a 
parent of a little baby who needs intensive medical care. For 
an extended period of time after my daughter was born, I could 
not even hold her until she was over ten days old.
    So it is my hope that any new mother who has given 
selflessly to her country wouldn't have to worry about Congress 
standing in her way if she tries to give selflessly to her own 
child. And our goal should always be to provide the mother with 
the best prenatal care she needs to give the newborn the best 
chance of healthy delivery.
    To the members of the subcommittee, I know my time is short 
and I have submitted a statement. This is something that we can 
do to support those who supported us. In a new and changing 
world with women serving proudly and strongly, this is 
something we can do to protect them and also give best care to 
them and their newborns when they have served us and into a new 
world of the VA.
    And with that, Mr. Chairman, I yield back.

    [The prepared statement of Doug Collins appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Collins.
    I think I am going to go back to Mr. Duffy.
    Mr. Duffy, could you give your testimony, please.

STATEMENT OF HON. SEAN DUFFY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Mr. Duffy. Yes. Good morning. Thank you, Chairman Dr. 
Benishek and Ranking Member Brownley, for holding today's 
hearing and I appreciate the opportunity to testify on H.R. 
353, the Veterans Access to Hearing Health Act.
    I introduced this bill along with Representative Walz from 
Minnesota and Ruiz from California to address the long wait 
times and lack of access to care for our veterans for audiology 
services.
    Our aging and younger veterans are returning home from the 
battlefield and they are seeking care from the VA in regard to 
hearing loss and tinnitus more than any other disability facing 
them today, yet the VA does not have the capability to keep up 
with the demand of these services.
    A recent Washington Post article cited that since the VA 
scandal broke last year, the number of veterans on wait lists 
for appointments has actually increased by 50 percent. 
Audiology services are a major factor in those wait times. 
According to the VA, nearly half of all patients waiting for 
care are waiting for audiology services.
    So we are all talking about personal stories today and I 
have one from my district. Roger Ellison, a 70-year-old Vietnam 
vet from Marshfield, Wisconsin, he is having hearing problems. 
So he goes to the VA and tries to set up an appointment. And 
they tell him he has to wait six months to get an appointment.
    I don't know how someone could go six days let alone six 
months when you can't hear. So instead he paid out of pocket, 
went to someone in his local community, a hearing aid 
specialist, and was able to get fitted for hearing aids. Pretty 
simple solution, but it would have been nice if the VA could 
have actually cared for him.
    Audiology services not only affect our older generation, 
but they are also affecting our younger generation too. Roger 
and thousands of other veterans are in situations because the 
VA, they are only allowed to use audiologists and not other 
capable providers to fulfill hearing aid services for our 
veterans.
    While audiologists are great resources for the VA to 
provide good services for our veterans, there is just not 
enough of them. There is too much demand. And so if you look 
for solutions on the committee, you can say let's try to spend 
more money and hire more audiologists. Well, that is great, but 
it is pretty tough to hire people into the VA and we don't have 
a lot of money.
    So what could we do that could actually resolve this 
problem, care for our veterans, and not spend really any more 
money? The answer is let's use hearing aid specialists. They 
are qualified. Veterans can get these services in their own 
communities. They can get their hearing aids fitted, adjusted, 
make minor repairs. And then we are going to lift the burden 
off the audiologists so they can actually focus on the more 
serious cases.
    But why are we backing up audiology appointments with 
hearing aid tweaks, hearing aid fittings? This can happen 
actually in the home community. This is a simple solution that 
doesn't cost money that is going to help our veterans out and 
it lifts the burden. And I think that is why we have such a 
bipartisan coalition that has come together on this bill.
    I would ask for you to respectfully consider a simple 
solution to a really big problem for veterans who can't hear. 
And if we come together, it is one of those small fixes that 
again makes a big difference.
    So I thank you for allowing me to testify and thank you for 
your consideration. I yield back.

    [The prepared statement of Sean Duffy appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Duffy.
    Mr. Coffman, are you ready to go ahead?

 STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Coffman. Yes, Mr. Chairman.
    Thank you, Chairman Benishek and Ranking Member Brownley, 
for holding this legislative hearing and including my 
bipartisan bill, the Women Veterans Access to Quality Care Act.
    Although the Department of Veterans Affairs has made some 
progress in recent years, the fact remains that the VA is a 
system largely designed for male veterans.
    A recent comprehensive study conducted by the Disabled 
American Veterans entitled Women Veterans, The Long Journey 
Home found serious gaps in almost every aspect of programs that 
serve women vets.
    In recent years, the active-duty military has made 
incredible strides towards fully incorporating women into the 
ranks. Though more work needs to be done, those long overdue 
changes in the Department of Defense have increased the pool of 
eligible recruits, raising the standards to make our military 
the most professional that our country has ever had.
    As more and more of these women leave military service and 
become veterans, it is critical that the VA quickly adapt its 
facilities and culture. The aim of my bill is to increase 
gender-specific access to healthcare within the VA, improve 
healthcare outcomes for our women veterans, and improve VA's 
facilities to ensure that they protect the privacy and dignity 
of all veterans.
    The need for this bill is largely illustrated simply by 
reviewing the rapidly changing demographic composition of the 
VA patient population. Between 2003 and 2012, the number of 
women veterans using VA healthcare nearly doubled. In 2012, 
women made up only 6.5 percent of the VA patient population, 
but are estimated to encompass over ten percent by 2020.
    Meanwhile, nearly 20 percent of all new recruits in the 
military are women. The women veteran patient population also 
has unique characteristics when compared to the male VA 
population. The median age of a female patient in the VA is 49 
years old compared to 64 for male patients. Only 13 percent of 
men within the VA were 45 years old or younger compared to 45 
percent of women.
    These are dramatic changes to the VA's patient population 
and the former almost exclusively male VA healthcare system 
simply hasn't kept up with the changes. My bill addresses the 
VA's lapses in healthcare quality and access for its women 
patients in five ways.
    First, my bill requires the VA to establish standards to 
ensure VA facilities meet the specific needs of women and 
integrates those standards into its strategic capital 
investment planning process. The Government Accountability 
Office found in 2010 that none of the VA hospitals it surveyed 
were compliant with the VA's own policies related to privacy 
for women veterans.
    Just to cite a few examples, the audit found that check-in 
desks were in busy mixed-gender areas and gynecological 
examination tables faced towards doorways. Additionally, 
despite VA's requirements that gynecological exam rooms have 
immediately adjacent restrooms, often women were required to 
walk down long hallways in high traffic, mixed-gender corridors 
to access restrooms.
    At a hearing in this room in April, I asked a panel of 
veteran service organizations' experts whether these conditions 
have improved in the past five years. And the committee learned 
that these problems continue to persist nationwide.
    Second, my bill holds VA medical facility directors 
accountable to performance measures which include women's 
healthcare outcomes and it requires the reporting of those 
outcomes. As with many other areas in the VA, there is an 
incredible lack of accountability which is hindering true 
progress and reform.
    Third, my bill ensures the availability of OB/GYN services 
at VA medical centers and requires the VA to conduct a pilot 
program to increase residents and graduate medical education 
positions.
    In 2010, nearly half of the women veterans who use VA 
healthcare had at least one reproductive health diagnosis. It 
is absolutely essential that these veterans have quick and 
reliable access to appropriate gender-specific care.
    Fourth, my bill improves outreach to women veterans by 
requiring the VA to provide state and veterans' agencies with 
contact information for veterans. One of DAV's findings in its 
report was that information on veterans' programs and 
eligibility is often difficult to access and scattered across 
various programs or Web sites. Increasing outreach to women 
veterans through collaboration with VA's state agency partners 
is vital.
    Finally, my bill mandates a new comprehensive GAO study of 
the VA's ability to meet the needs of women veterans including 
an examination of wait times, gender-specific care 
availability, VA training, differences in health outcomes, and 
security and privacy within VA facilities.
    During my own military career, I have witnessed quite a 
number of challenges that the military has had to confront. 
Each time it overcame the obstacles and always emerged as a 
more effective fighting force. I have full confidence that the 
VA can do the same.
    I hope my bill can jumpstart the cultural sea change 
required at the VA to ensure our women veterans are provided 
the same benefits they earned in service to our Nation just 
like their male counterparts. I am grateful for the support of 
many of our Nation's veterans and veteran service organizations 
have provided for this bill and I urge all of my colleagues on 
the committee today to join me in this effort.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mike Coffman appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Coffman.
    Dr. Boustany, could you begin your testimony.

    STATEMENT OF HON. CHARLES BOUSTANY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. *Boustany.* Thank you, Chairman Benishek, Ranking 
Member Brownley, and members of the subcommittee, for inviting 
me to testify before you today.
    As the committee considers reforms to the Department of 
Veterans Affairs operations, I really appreciate the 
opportunity to speak on behalf of my legislation, H.R. 1862, 
the Veterans Credit Protection Act.
    Unfortunately, the VA's long history of delayed payments 
has brought me here to testify before you today. Too many 
veterans are forced to contact offices across our districts to 
resolve credit issues caused by the VA's refusal to pay claims 
for emergency medical care.
    When these brave Americans require a trip to the emergency 
room because they have a serious illness or they fear that 
their lives are in danger, the last thing on their minds should 
be fear that the VA will fail to pay their claims. The last 
thing that should be on their mind are concerns about the VA 
damaging their credit rating.
    One such veteran in my district, Al Theriot of Abbeville, 
Louisiana, waited over two years for the VA to finally process 
and pay his emergency medical care bills which the agency did 
only after Mr. Theriot contacted my office and appeared on 
local television twice to describe his experience. This is just 
unacceptable. It is terrible and disrespectful service for our 
veterans.
    I submitted documentation from the VA to the subcommittee 
early in June demonstrating the scale of this problem. Just to 
reiterate some of the findings, data provided to me as of April 
2015, the VA's chief business office indicated that only 14, 14 
percent of emergency medical care claims originating from VISN 
16, which includes my home State of Louisiana, were being 
processed within 30 days. In total, the data demonstrates a 
national backlog of over $878 million.
    The Veterans Credit Protection Act is an important step to 
rooting out the problems within the VA that caused this out of 
control backlog. First, the legislation mandates the VA to set 
up a toll-free hotline for veterans to report credit issues 
caused by delayed emergency medical care claims.
    It also requires the VA to conduct outreach alerting 
veterans of how to resolve these issues. Too often veterans 
tell me they cannot get in touch with the VA or that the 
employees they speak with cannot adequately answer their 
questions.
    Creating a dedicated call line and ensuring the VA 
implements a better framework for communicating solutions with 
veterans is an absolutely necessary step toward eliminating the 
backlog.
    My bill also requires VA to report annually to Congress on 
the chief business office's effectiveness with respect to 
timely claims processing. Their report must include information 
on the number of veterans who have reported credit issues due 
to delayed payments, the number of proper invoices submitted, 
the amounts owed on those invoices, and how long it took the VA 
to pay those claims, among other bits of information.
    In addition to requiring the VA to report on the status of 
claims, H.R. 1862 aims to improve the chief business office 
operations by requiring the VA to examine comments made by 
medical providers regarding the claims processing system and 
delayed payments and report these comments to Congress along 
with a description of best practices to ensure timely claims 
payment in the future.
    No veteran should ever have to decide whether or not to 
sacrifice their health and safety to avoid a potential 
financial burden if the VA fails to pay for a trip to the 
emergency room.
    I want to sincerely thank the subcommittee for your efforts 
to ensure better care for America's veterans and for inviting 
me to be a part of this important discussion. Thank you.

    [The prepared statement of Charles Boustany appears in the 
Appendix]

    Dr. Benishek. Thank you, Dr. Boustany, for your wise use of 
your time.
    Mr. Denham, would you please begin your testimony.

  STATEMENT OF HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. *Denham.* Thank you, Mr. Chairman.
    Committee members, eye clinics staffed by the VA doctors of 
optometry including residents are among the busiest primary 
care settings in the veterans healthcare system.
    This bill, 1688, is aimed at improving access to primary 
eye care in the VA by making a modest increase in the number of 
optometry residency positions in the VA.
    My bill seeks to amend the Choice Act by designating 20 of 
the 1,500 new graduate medical education residency positions to 
the field of optometry. Although VA optometrists provided 
comprehensive eye exams and other essential care to more than 
1.2 million veterans last year, the need for eye health and 
vision care is expected to grow further in the coming years.
    Serious eye trauma is the second most common injury among 
those who served in Iraq and Afghanistan, with 16 percent of 
all wounded servicemembers experiencing problems ranging from 
distorted vision to blindness. Additionally, up to 75 percent 
of all TBI patients experience vision problems.
    Increasing the number of optometry residents at the VA is 
one of the ways to enhance the VA's ability to address chronic 
patient care backlogs as well as train new doctors of optometry 
in advanced practices.
    Since the VA established its first optometry residency in 
the 1970s, the program has proven to be an essential, cost-
effective force multiplier to boost eye care teams and make 
veterans healthier and more engaged in their own care.
    I would appreciate your support on H.R. 1688 to improve 
access to this important care for our veterans by adding 20 
additional optometry residents to the VA over the next ten 
years.
    Thank you, and I yield back.

    [The prepared statement of Jeff Denham appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Denham.
    Dr. Wenstrup, present your bill.

 STATEMENT OF HON. BRAD WENSTRUP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Dr. Wenstrup. Good morning, Chairman Benishek, Ranking 
Member Brownley, and members of the committee. Thank you for 
the opportunity to speak on the VA Provider Equity Act, H.R. 
3016.
    This bipartisan legislation which is currently cosponsored 
by every doctor on the VA Committee and the ranking member of 
this subcommittee would increase access to care for our 
veterans by changing outdated standards to move VA podiatrists 
to the same fee schedule as doctors of medicine and osteopathy 
within the VA.
    After years of war, we have a new generation of Iraq and 
Afghanistan veterans returning with lower extremity injuries. 
These needs along with diabetic-related complications, 
peripheral neuropathy often linked to Agent Orange exposure, 
orthopedic maladies, vascular compromise, and many other 
conditions require ongoing care from the Veterans Health 
Administration that podiatrists are uniquely trained to 
provide.
    The need is dramatic. The Department of Veterans Affairs 
treats more than 45,000 veterans who have lost limbs and 1.8 
million more veterans within the VA are at risk of amputation, 
but the wait times remain unacceptable.
    For those veterans seeking podiatric care within the VA, 93 
percent of new podiatry patients wait more than 15 days for an 
appointment. More than two-thirds of them wait more than 30 
days. These wait times exist because the VA is struggling to 
recruit and retain experienced podiatrists.
    Forty-two percent of VA podiatrists leave the VA system 
within five years of being hired and every time a podiatrist 
leaves, the average time to fill a vacant podiatry position is 
one year. The problem, a self-imposed one, is that the VA is 
not competitive with the private sector when it comes to hiring 
and retaining podiatrists.
    While the maximum salary for a VA podiatrist is $132,000, 
the average salary for podiatrists in the profession is 
$183,269 according to a 2013 APMA survey. That is a $50,000 
difference between the industry average and the maximum that 
our VA podiatrists can make. It is no wonder that many of our 
veterans are losing their VA podiatrists to the private sector.
    The VA Provider Equity Act would place podiatrists on the 
same fee schedule as doctors of medicine and osteopathy within 
the VA. Since the VA first established podiatric pay standards 
in 1976, podiatric education, training, and practice have 
increased exponentially. Medicare recognized these changes over 
20 years ago and implemented fee schedule reform in 1991. I 
think it is time for the VA to do the same.
    Additionally, H.R. 3016 would make podiatrists eligible for 
the same promotions in leadership positions within hospital 
systems that they often currently hold in the private sector.
    I thank the chairman and ranking member for their support 
and the commitment to increasing access to healthcare for our 
Nation's veterans. I ask for the support of my colleagues in 
advancing this important legislation. Let's ensure that access 
to podiatric care is included in the comprehensive first-class 
healthcare that all veterans deserve.
    Thank you.

    [The prepared statement of Brad Wenstrup appears in the 
Appendix]

    Dr. Benishek. Thank you, Dr. Wenstrup.
    And I want to thank all the members of the first panel, all 
my colleagues for their interest in improving veterans' 
healthcare and thanks for the great ideas.
    I am not going to ask any questions, but I think Mr. Walz 
had asked to go first because he is on a tight schedule for 
comment. Is that true, Mr. Walz?
    Dr. Walz. Well, I don't want to irritate my colleagues, Mr. 
Chairman, but I would be honored and appreciative if I could.
    Dr. Benishek. Yeah, go ahead.
    Dr. Walz. Well, thank you to the chairman and thank you to 
the ranking member, first for allowing me to be here, more 
importantly to all of my colleagues for putting forth 
thoughtful legislation to improve the lives of veterans and 
families.
    I think it is really important that this committee, while 
we simultaneously hold people accountable for the failings that 
are unacceptable, we also provide alternatives, provide 
solutions.
    And I think that that old adage of we can sit around and 
curse the darkness or we can light a few candles, there is 
certainly some cursing that needs to be done on some of these 
things, but I think each of these pieces of legislation provide 
the VA opportunities to partner and to do things and continue 
to build on things that are working right.
    I would just spend a minute. The two bills that I was lead 
cosponsor on with my colleagues, Mr. Duffy's bill on getting 
the hearing aids and the backlog, this makes good sense. It is 
smart. It is cost effective. It gets veterans out there. And we 
are doing it in many cases. I think this codifies it to the 
point where we can more effectively use our private sector and 
local providers to get folks out there.
    This one is personal to me, too, as nearly 25 years in the 
artillery, hearing loss is something that all of my peers 
experience and I know that the quality of life that improves 
when you get quality care makes a big difference.
    And then Mr. Stivers was here to talk about it. It may seem 
like a small thing, but he is exactly right. The therapy dogs 
make a huge difference. And if it provides solace and care for 
one veteran and we have the opportunities to be out there and 
do that, I think he is right. His piece of legislation starts 
to move that forward.
    And I know most of my colleagues here all have witnessed 
this with veterans. It is a very powerful thing. And there is 
research to support it, but this is one of those that seeing is 
believing with what happens.
    So I thank the chairman again for a very productive hearing 
and my colleagues for bringing up thoughtful legislation. And, 
again, I do think it's incumbent upon us to provide our 
oversight, help provide that accountability, but then also to 
provide and partner with ways that find solutions. And each of 
these pieces of legislation we heard today, I think, does 
exactly that.
    So thank you, Chairman, for the courtesy, and I certainly 
look forward to the support on all these pieces of legislation.
    Dr. Benishek. Thank you, Mr. Walz.
    I don't have any questions myself or further comments other 
than my statement.
    Do any of my colleagues on this side? Dr. Roe, you have a 
comment----
    Dr. Roe. Just a couple. Thank you.
    Dr. Benishek [continuing]. Or question?
    Dr. Roe. Thank you. I will be very brief.
    But certainly Tim Walberg's, Congressman Walberg's, his 
bill ought to be passed. That is just so common sense. Those 
Medal of Honor winners ought to have Secretary McDonald on 
speed dial. We should honor them. That should be no question.
    I think one of the things I think on Congressman Collins 
that caught my attention was I found it a little bit surprising 
that we only provide two weeks' care for the baby that is born 
of the mother and we provide her six weeks of care. I don't 
know why we wouldn't just parallel those, marry those up and 
say, look, the baby goes for a six-week checkup just like the 
mother does. And why in the world are we putting two weeks? I 
would encourage us to have the same thing for the baby, that 
the first six weeks of care--exactly like the mother. That 
makes no sense to me.
    So I would ask my colleague if he would consider an 
amendment to his bill just to do that, if that would be 
something we would like to discuss. It makes absolute sense.
    And I know that on the therapy dogs that Congressman Walz 
brought up, they can be very relaxing unless you have a Sheltie 
like I did which chewed up over a thousand dollars worth of my 
shoes. That was very stressful to me personally. I had to have 
therapy to keep from strangling that dog. Anyway, he is still 
at the house. And that wasn't all he chewed up either. I could 
go into a whole book on that. But I totally agree with that 
bill.
    And I don't think we ought to be prescribing just as he 
was--congressman walks in, how many residency slots that--I 
don't think Congress ought to be doing that. I think those 
residency slots are--those 1,500 slots, the VA can see where 
their needs are. I believe the VA people can decide that. I 
truly believe that.
    I think it would be very bad if I walked up and said we 
need six OB/GYN slots and 14 internal medicine slots. I don't 
think we need to micromanage that. I think the VA has the 
ability to see where their needs are. I would let them make 
those decisions. And just to comment there, I think that is a 
bad thing to get into for us to be telling those just how many 
they should have.
    Other than that, I will yield back my time.
    Mr. Takano. Mr. Chairman, before he yields back, would you 
yield just ten seconds to me?
    I want to associate myself with your remarks on the GMEs. 
That is all. Thanks.
    Dr. Benishek. Thank you, Dr. Roe.
    Do you have any questions?
    Ms. Brownley. No.
    Dr. Benishek. Ms. Kuster.
    Ms. Kuster. Thank you, Mr. Chair.
    I just want to associate myself with the bills introduced 
by my colleague, Julia Brownley, and in particular the Female 
Veterans Suicide Prevention Act. And I wanted to address an 
issue.
    I want to join Dr. Roe in the six weeks. I agree matching 
that up makes sense. I would imagine most of the babies are 
going home healthy in the first week, but the ones who stay, 
that is the most stressful situation and they should get the 
care that they need.
    And I just had a few questions, but I don't need to get 
into the details right now on Mr. Coffman's bill because I know 
there was some question from the VA. This is more by way of a 
comment.
    In White River Junction, Vermont, we have a new women's 
treatment facility that I would love to include if we get to do 
some kind of a hearing, field hearing from our oversight 
committee, but they had a chance to have a group of women 
veterans that participated in the planning of that. And so they 
were able to bring out some of the psychological issues for 
them about seeking care.
    And even the architecture was designed--it is a renovation, 
by the way. We have nothing new up there, but it is a 
renovation of a very old facility. But they took into account 
their feelings of being safe and protected, even the way they 
designed the entrance, the way they designed the waiting room, 
the way they designed the actual physical rooms where they, you 
know, have their medical exams.
    Obvious things once you think about it, but just very, very 
helpful. So I would love to work further with you on this. I 
think it is really important and I appreciate our colleagues on 
the other side and how much interest they have in women, health 
for women veterans in the VA system.
    So thanks.
    Dr. Benishek. Thank you.
    Any comments or questions? Dr. Abraham.
    Dr. Abraham. I just want to say I was a very proud 
cosponsor of Dr. Wenstrup's bill. The hearing aid, the 
accountability, the credit protection, I think they are great 
bills, and I just look forward to them advancing very quickly.
    Dr. Benishek. Thank you, Dr. Abraham.
    Any other comments?
    All right. I guess the first panel is over with.
    Let's invite the second panel to the witness table. Joining 
us on the second panel today is Ian de Planque, the Legislative 
Director for The American Legion; Adrian Atizado, the Assistant 
National Legislative Director for the Disabled American 
Veterans; and Carlos Fuentes, Senior Legislative Associate for 
the National Legislative Service of the Veterans of Foreign 
Wars of the United States.
    I thank you all for being here this morning and for all 
your hard work and advocacy on behalf of our veterans. I look 
forward to hearing the views of your members.
    And if you are ready, Mr. de Planque, you may begin.

                  STATEMENT OF IAN DE PLANQUE

    Mr. de Planque. Good morning, Chairman Benishek, Ranking 
Member Brownley, and members of the committee. I am fortunate 
to be here today and speak on behalf of the American Legion, 
our National Commander Mike Helm, and more than two million 
members in over 14,000 posts across the country that make up 
the backbone of the nation's largest wartime service 
organization.
    There are many excellent pieces of legislation for 
consideration today. You have our full written remarks and in 
the interest of time I would like to focus on a couple of key 
bills.
    H.R. 1356, the Women Veterans Access to Quality Care Act of 
2015, addresses critical needs the American Legion has worked 
to raise awareness of for many years. Women are currently the 
fastest growing demographic serving in the military; however, 
the VA healthcare system is still based on an older design from 
a time period when women did not represent a substantial 
portion of veterans seeking care. And the legacy of that older 
design is obstacles for women who seek care. The American 
Legion has surveyed women veterans and we have dedicated 
special focus of our System Worth Saving Task Force report to 
the experiences of women using the VA healthcare system.
    We have learned women veterans often do not self-identify 
as veterans and that VA staff often do not see women as 
veterans. Women veterans do not need to be asked, how did your 
husband serve in the military? They need to be asked, how can 
VA serve you to thank you for your service?
    This legislation should go a long way towards establishing 
consistency by establishing standards for all facilities. The 
reporting mechanisms in the bill will help all of the 
stakeholders keep apprised of VA's progress on better 
integrating women's healthcare. More transparency leads to 
better communication between stakeholders.
    Everyone wants to ensure all veterans are well served in 
VA. This legislation will help work to close gaps and ensure 
all veterans are served with equal attention to their care.
    The American Legion is also glad to see attention being 
given to serious reform in VA large scale construction 
projects. The Construction Reform Act attempts to ensure 
competent management of serious large scale construction 
projects such as major hospitals so that those projects do not 
spiral out of control as they have in years past. The American 
Legion believes VA should be allowed to focus on what they do 
well, providing care to veterans, and that large scale 
construction management should go to organizations that are 
dedicated solely to that mission of construction. It only makes 
sense that a doctor to treat patients, select carpenters, 
masons, electricians for building the places to treat those 
patients. Keep VA in the business of treating patients.
    Finally we are happy to see that attention is being given 
to fixing the long standing problem with CBO scoring of leases 
for community based outreach clinics. CBOCs are a critical 
component of the 21st Century model for delivery of care within 
the VA and for the last couple of years we have had to scramble 
to find slapped--together--work around measures once the 
Congressional Budget Office changed the manner in which the 
leases for CBOCs are scored. H.R. 2914, the Build a Better VA 
Act, will create a more permanent solution to the problems 
created by the change in scoring. Just last year the 
uncertainty surrounding leases for 27 CBOCs created doubt, 
concern, and fears of lost coverage for hundreds of thousands 
of veterans until a short term solution was worked into the 
Veterans Access to Care, Choice, and Accountability Act. As the 
American Legion has been involved in working towards a solution 
since the beginning we knew that last year the 27 leases only 
represented a temporary reprieve from the bigger problem. We 
still have to find a long term fix. The American Legion 
believes this legislation can work towards that fix.
    Again, I thank the committee for their hard work and for 
your consideration of this large slate of legislation, as well 
as your dedication to finding solutions for problems that stand 
in the way of delivery of healthcare for veterans. I am happy 
to answer any questions.

    [The prepared statement of Ian de Planque appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. de Planque. Mr. Atizado, you 
may begin.

                  STATEMENT OF ADRIAN ATIZADO

    Mr. Atizado. Chairman Benishek, members of the 
subcommittee, thank you for inviting DAV to testify at this 
legislative hearing. As you know, DAV is a nonprofit veterans 
service organization. We are comprised of 1.2 million members 
and we are all dedicated to one goal, and that is to empower 
veterans to lead high quality lives with respect and dignity.
    So today nearly 2.3 million women are veterans of the 
military service and that number is expected to continually 
grow into the future as they comprise 50 percent of active duty 
personnel and 18 percent of the Guard and Reserve. There are 
three bills on today's agenda directed to improve healthcare 
and services to women veterans, H.R. 423, the Newborn Care 
Improvement Act; H.R. 1356, Women Veterans Access to Quality 
Care Act of 2015; and H.R. 2915, the Female Veterans Suicide 
Prevention Act.
    H.R. 423 will provide a newborn child of certain women 
veterans receiving VA maternity care with post-delivery care 
for up to 14 days after the child's birth. H.R. 1356 seeks to 
improve the VA healthcare system to provide safe, comfortable, 
and high quality care to women veterans. It would establish 
standards for VA to meet in this regard and requires an 
accounting of those parts of VA that do not meet these 
standards. H.R. 2915 would direct VA to identify mental 
healthcare and suicide prevention programs that are most 
effective and have the highest satisfaction among women 
veterans.
    These bills are in line with DAV Resolutions 39 and 40, 
both of which support program improvements and enhanced 
resources for VA mental health programs as well as medical 
services for women veterans. And as Mr. Coffman had mentioned, 
they are also in line with the recommendations put forth by DAV 
in our 2014 report, ``Women Veterans: the Long Journey Home.'' 
For these reasons DAV is pleased to support all of these 
measures.
    DAV also supports H.R. 3016, which would reclassify VA 
podiatrists for purposes of appointment and compensation in the 
same category as other VA physicians. Now podiatrists play a 
critical role in maintaining foot health and dealing with 
injuries and diseases of the foot and ankle, however doctors of 
podiatry were inexplicably excluded when Congress enacted VA 
physician pay reform back in 2004. We believe their 
appointments and compensation should be made commensurate with 
those of other physicians in the VA.
    H.R. 2914, the Build a Better VA Act, would prohibit the 
appropriation of funds to support any VA major medical facility 
lease unless the Committee of Veterans' Affairs of both 
chambers adopt resolutions approving the lease. We thank the 
bill's sponsor for the intention of improving the authorizing 
committees' role in overseeing VA's leasing program and to 
provide more specific guidance to the Appropriations Committees 
in funding VA leases. DAV is aware of issues surrounding VA 
infrastructure and capital planning matters and our national 
resolution calls for modernizing aging VA facilities and to do 
so in a timely manner. It specifically calls on Congress to 
resolve, as my colleague Ian de Planque from the American 
Legion had referred to, as a delay of dozens of major medical 
facility leases for several years due to disagreements in the 
administration over out year costs for such leases.
    While we oppose the bill in its current form, DAV stands 
ready to work with the bill's sponsor and the subcommittee and 
VA to ensure this legislation will indeed provide the 
improvements that it purports. We already understand that VA is 
experiencing delays ranging from six months to 13 years for 
major facility leases with an average delay of more than three 
years.
    This concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions you or members of the subcommittee may 
have. Thank you.

    [The prepared statement of Adrian Atizado appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Atizado. Mr. Fuentes, you may 
begin.

                  STATEMENT OF CARLOS FUENTES

    Mr. Fuentes. Chairman Benishek, Ranking Member Brownley, 
and members of the subcommittee, on behalf of the men and women 
of the VFW and our auxiliaries, I would like to thank you for 
the opportunity to present our views on legislation pending 
before this subcommittee.
    The bills we are considering today are aimed at improving 
the healthcare the VA provides our nation's veterans and we 
thank the subcommittee for bringing them forward. I would limit 
my remarks to bills we have recommendations to improve.
    The VFW supports the Veterans Credit Protection Act, which 
would assist veterans with credit issues resulting from unpaid 
healthcare claims. In the past year VA has made organizational 
changes to the claims process to improve timeliness and 
accuracy of healthcare claims, however the VFW continues to 
hear that non-VA care providers continue to bill veterans for 
care VA is obligated to pay. The VFW believes that the best way 
to prevent veterans from being wrongfully charged is to ensure 
VA pay the claims on time and accurately. This is why we 
recommend that the GAO report include an evaluation of the 
accuracy of VA's healthcare claims process.
    This legislation also requires VA to assist veterans with 
credit issues that result from any healthcare claim, regardless 
of if VA is authorized to pay such a claim. While the VFW 
believes the VA should assist veterans in achieving financial 
independence, we do not support overwhelming VA's chief 
business office with claims it is unable to resolve. We 
recommend that the subcommittee limit assistance through the VA 
toll free hotline to healthcare claims VA is authorized to 
resolve.
    The VFW supports the Building a Better VA Act, which would 
streamline the congressional process for authorizing VA major 
facility leases. This legislation would authorize the 
Committees of Veterans' Affairs of the Senate and the House of 
Representatives to approve VA major facility leases without 
requiring legislation. However, it does not eliminate the 
requirement for the House Transportation and Infrastructure 
Committee to pass similar resolutions. The VFW recommends that 
the subcommittee exempt VA leases from such a requirement.
    This legislation also fails to address other factors that 
hinder VA's ability to enter into major facility leases. 
Currently VA lacks a revolving fund to insure its major 
facility leases in the case it is unable to abide by 
contractual agreements and is required to pay out the full cost 
of the lease without receiving appropriations. VA currently 
relies on the GSA revolving fund to insure major VA facility 
leases. We urge the subcommittee to establish a VA revolving 
fund for VA leases.
    The VFW supports the Female Veterans Suicide Prevention 
Act, which would improve VA mental healthcare and suicide 
prevention programs offered to women veterans. As VA and 
Congress work to expand availability of women--specific care at 
VA medical facilities, they must also focus on expanding 
research on the psychological and physical effects war has on 
women veterans. Without such research women veterans may go 
unnecessarily undiagnosed or untreated for serious conditions. 
The VFW strongly supports this legislation and recommends that 
the subcommittee expand it to include evaluation of which 
mental healthcare and suicide prevention programs produce the 
best healthcare outcomes for women veterans. VA and Congress 
have already identified several programs that are proven to 
work and are well received by women veterans, such as the 
childcare pilot program and the retreat counseling program for 
women veterans. The VA and Congress must ensure these programs 
are expanded and successfully implemented.
    The VFW supports the Construction Reform Act of 2015, which 
would require VA to enter into project management agreements 
for major construction projects over $100 million; calls on VA 
to apply industry standards when constructing medical centers; 
and authorizes the funding of four major construction projects. 
While the VFW agrees that VA's role in managing construction 
projects should be reduced, establishing a specific cap with no 
waiver process would lead to VA managing projects that would be 
better suited for third party managers, or prevent it from 
managing projects that are over the cap which they could 
clearly manage. We recommend that the subcommittee establish a 
waiver process in the plan and design phase that would allow VA 
to manage larger projects when appropriate and authorize the 
committee's jurisdiction to require appropriate below cap 
projects to be managed by the third party.
    Mr. Chairman, this concludes my testimony. I look forward 
to any questions you or the members of the subcommittee may 
have.

    [The prepared statement of Carlos Fuentes appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Fuentes. I yield myself five 
minutes for questions. Mr. Atizado, I read your written 
statement about my bill 2464 was sort of surprising and 
different from some of your colleagues on your comments. You 
wrote, demanding accountability for veterans acts would result 
in a major chilling effect on candidates for VA management 
positions, as well as those already occupying those positions. 
Do you think that VA employees really are adverse to 
accountability, Mr. Atizado?
    Mr. Atizado. Well Mr. Chairman, thank you for the question. 
I do not believe that the chilling effect and holding folks 
accountable in federal agencies are mutually independent. I 
think part of the problem here may be that applying this 
standard just to one federal agency will discount consideration 
of managers and SESers.
    Dr. Benishek. Well believe me, I would like to have 
everybody in the government be accountable. Trust me. But this 
is a problem that really identified, you know, through this 
hearing process that, you know, the VA agrees there is a 
problem, and agrees they are going to fix it, and yet they 
never name anybody to be accountable and it never gets fixed. I 
mean, you have seen this yourself, haven't you?
    Mr. Atizado. Yes, sir.
    Dr. Benishek. How would I, other than holding somebody 
accountable and naming them, do you have any suggestions as to 
how else I should do this?
    Mr. Atizado. Well I think one of the questions that we have 
asked which we have a hard time getting a straight answer for 
is, why is the current structure not working properly? It seems 
to me that--I believe it was a hearing in the Senate where it 
was intimated that the tools are there but VA seem to not be 
able to use them the way they are intended.
    Dr. Benishek. Well maybe you are right about that. It is 
just that whenever I try to identify the person who is 
responsible for not making things happen within the VA, nobody 
seems to be that person. Do you understand what I mean? The 
reason I am doing this is that for 30 years the IG has told the 
VA, you need a plan to hire physicians. Eight different times 
the IG has told the VA that. And the VA has agreed with them 
every time. And yet, they never developed a central plan to 
hire physicians and nobody seems to know why. You understand my 
frustration here? I mean, I am just trying to solve this 
problem.
    Mr. Atizado. Yes, Mr. Chairman. If you will notice in our 
testimony, we do not have specific resolutions to support or 
oppose the bill. We just raise concerns because of what it may 
do to the healthcare system, both good and bad. We understand, 
believe me, we understand on a daily basis that when we 
encounter employees in the VA healthcare system who do not meet 
the standards that we normally see in caring, compassionate 
employees, everywhere from the janitors to the surgeons. And we 
would like to have those individuals held accountable, whether 
it is for poor performance or just----
    Dr. Benishek. Right. Right. Mr. Fuentes or Mr. de Planque, 
do you have any comments you would like to make on about Mr. 
Atizado's comments?
    Mr. Fuentes. I do, Mr. Chairman. One of the things that I 
think is overlooked when it comes to accountability is the 
difficulties VA faces when hiring physicians and staff to 
replace the ones that they hold accountable. I mean, what we 
have seen is VA would rather have an underperforming employee 
than to have no employee for a year. So when it comes to 
accountability our recommendation is to also take a look at 
hiring practices and Congress should assist VA in addressing 
why it takes so long to hire a new employee.
    Dr. Benishek. Mr. de Planque.
    Mr. de Planque. I would agree with what he just said in 
that if you are going to be looking at removing employees you 
also have to look at shortening the amount of time it takes to 
bring new ones on. I think that is a critical component. But I 
also agree with kind of the point of this legislation. And that 
is, you know, taken from the example of, you know, if you come 
across somebody and you need to start performing CPR you look 
at somebody and say specifically, Dr. Benishek, go call 911. 
Because if you put it out to the group then everybody in that 
crowd standing around watching you is going to assume somebody 
else is going to do it. And we have seen this so many times 
with IG reports and GAO reports. There are all these 
recommendations, and VA agrees to them, but it is not 
specifically tasked to any sort of thing.
    Dr. Benishek. Right.
    Mr. de Planque. And I think this is what you are trying to 
get to.
    Dr. Benishek. Right.
    Mr. de Planque. That notion that in a crisis give the task 
to somebody. And I think the legislation as you talked through 
it and as we looked at it, it is not necessarily about firing 
people if they do not do it. It is putting together a plan and 
giving those people who are tasked with fixing that thing that 
a report identified with a plan and if they cannot follow 
through that plan then there are follow up measures. And at 
some point down the road possibly if they continue to be unable 
to do it then you are talking about----
    Dr. Benishek. Right.
    Mr. de Planque. [continuing]. Removing that person. But it 
is more about assigning an individual accountability. And I 
think that is actually a pretty strong idea.
    Dr. Benishek. Ms. Brownley.
    Ms. Brownley. Mr. Chairman, again, I thank everyone for 
being here today and being our partners in trying to move 
forward good policy for our veterans across the country. And I 
appreciate all of you for your support of the Female Veterans 
Suicide Prevention Act. I appreciate it very much. I think it 
is, if we are going to serve all veterans, and serve them well 
when it comes particularly to mental health, that we must with 
regard to our women veterans disaggregate the data, get the 
right metrics, get the best practices. Because I feel convinced 
and compelled that in many, many cases women are going to 
respond differently than men will and it is important for us to 
get that right and get the right data to inform us. So thank 
you for that.
    And Mr. Atizado, I know that my bill has not been out for 
very long, on the Build a Better VA Act. I appreciate your 
willingness to sit down and work with us on it. And I would 
welcome that and look forward to it. Because I think, I mean I 
think this is a problem that has to be solved. I mean we, we go 
through all of the studying to determine where the needs are 
across the country, to have health clinics and CBOCs across the 
country. And yet the way we are addressing this issue now and 
the way it is scored, we have got a long list of needs but we 
cannot satisfy them because they are scored sort of 
outrageously and unrealistically. And I think that we need to 
help to streamline the process. I think we had a process that 
worked. I think we have a process right now that is not working 
for veterans. And that is what we are trying to do here, is to 
streamline it to bring some similarity about how we treat 
federal buildings and treat sort of health clinics for veterans 
in a similar fashion and bring the responsibility I think 
closer to this committee and to the, and to Congress itself.
    So I appreciate your willingness to sit down and help. I 
appreciate the support from the other two panelists and really 
look forward to working with you to be able to solve this 
problem that we know the need out there is tremendous. We have 
talked a lot in testimony over the course of the years, is we 
want to push out and bring clinics to more rural areas and to 
areas that are going to reach our veterans, make it easier for 
our veterans to access health services from the VA. And I think 
if we can fix the process we can meet our objective. So I thank 
you very much and appreciate your testimony today. And I yield 
back.
    Dr. Benishek. Thank you, Ms. Brownley. Dr. Roe.
    Dr. Roe. Just one. First of all, thank you all for 
advocating for veterans, what you do every day of your life. 
And it has got to be rewarding work. Thank you for doing it. My 
only question, Mr. Chairman, is on the Construction Reform Act. 
I am really, I am not sure, as I said here before, that I can 
vote to let the VA build another major project because they 
include us in the--I want to make sure that I understand this 
bill very carefully and I understand the intent of it. But 
there have been, I mean, there have been some fiascos out there 
that are beyond comprehension. The one in Aurora, Colorado 
where $1 billion dollars was spent. And now we are, now this 
committee is part of it. I have to go back home and to talk to 
veterans and talk to taxpayers there that want to help 
veterans. But when they see these excesses they think, my gosh, 
I mean how much healthcare, how many visits could we have had 
to doctors and to the medical centers based on a $1 billion 
dollar overrun? And I am afraid if we let the VA get in control 
of these again, the same thing is going to happen again. We 
will be sitting here talking about the same thing.
    So I just want to understand this bill better. I certainly 
have read it and it does have a lot of good things in it. But I 
want us to really have incredible oversight over that process. 
Or as I think Mr. Coffman has recommended, the Corps of 
Engineers have done a great job. They bring these projects in 
on time, under budget. And that is what we need to look at. I 
do not know how in the world Aurora ever happened. I, to this 
day I cannot explain. And now we are going to have to provide 
$1 billion in taxpayer funding, and it is not through yet, to 
get this project done. And we will finally get it done. I know 
we are going to, for the veterans that are waiting on care in 
Colorado. And that whole region, it will be a referral area. 
But that is just a comment. And I certainly look for help on 
the committee. And I yield back.
    Dr. Benishek. Thank you, Doctor. Ms. Kuster? Do you have 
any questions? Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And first on the 
construction, and I think, you know, obviously the bill is a 
step in the right direction. But I agree with Dr. Roe, it does 
not go far enough. And I think that the, having Aurora, 
Colorado in my district, the biggest cost overrun. But let me 
tell you, there have been a lot of other horrible cost 
overruns, although they do not exceed Aurora. I think there was 
a GAO report from 2013, April, 2013, that said that all major 
construction projects at that time were each hundreds of 
millions of dollars over budget and years behind schedule.
    I think that they should be stripped of all new 
construction authority, period, and that should revert to the 
Army Corps of Engineers. And this bill, I think, has that $100 
million and below. But I think, you know, if you give them $100 
million it could be, you know, what is that in terms of cost 
overruns? Is that $300 million by the time the project is done? 
And there is no ability to revert automatically once there is 
cost overruns to, say, an entity like the Army Corps of 
Engineers who have built similar projects, you know, as you 
mentioned, Dr. Roe, on budget, within schedule.
    Let me ask a question on H.R. 1356, the Women Veterans 
Access to Quality Care Act. I asked this question at a hearing 
in April and I would like to ask it again. Because there is a 
different representation on this panel today than there was 
then. In 2010 the GAO found that VA was not complying with its 
own privacy policies and facility standards for women veterans. 
These are policies designed to ensure the safety, dignity, and 
privacy of women patients at the VA. Based on the feedback of 
your membership, if GAO did the same review today, what would 
they find? Would anybody like to comment on that? Yes, Mr. 
Fuentes?
    Mr. Fuentes. Thank you for the question, Congressman. 
Before drafting testimony for women specific hearings, we have 
actually reached out to women veterans in leadership roles in 
our organization and many other women veterans who have reached 
out to us. And they see and the ones that attend a women's 
clinic feel that they are appropriate and that it is great 
service. But there is a long way to go. One of the things that 
we heard consistently was when there are OB/GYNs on staff, many 
times they are part-time. Right? And they do not have the time 
or the staff to take care of all the women veterans that that 
facility serves.
    Mr. Coffman. Thank you. Anyone else?
    Mr. de Planque. I was going to say that is also very 
consistent with what we found and that we continue to go there. 
And you see that these things are not improving. I know 
Sergeant Major Walz once made a point about, you know, the VSOs 
come in and they say the same things over and over and people 
have criticized that, but if they say the same things over and 
over it means it is not getting fixed. And this is, to see this 
and to see legislation that is attempting to address that, to 
us, that is heartening because it means the message is getting 
through that these problems are still out there. When we talk 
to women veterans who are out there, I mean, we have them 
integrated on our staff, we have them, you know, throughout all 
levels. And you know, they just want to be treated right and 
that is not so crazy a thing to ask. And so when you go out 
there and you see that they still do not have the operating, or 
the examination tables aligned correctly, it is a basic fix 
that cannot be that hard to fix. And it is just not being done. 
That is a consistency factor. And so there has been an attempt 
to address it and they are getting better, but VISNs are 
inconsistent. From VISN to VISN, you know, you do not know what 
you are going to get. And I think that is kind of a watchword 
for VA.
    Mr. Coffman. Okay. The 2010 GAO report also found that some 
of the VA medical centers surveyed offered specialized gender 
specific healthcare services, things like abnormal cervical 
cancer screening, obstetric care, and infertility evaluations 
only two or fewer days per week. Are you finding that your 
female membership is having difficulties getting appointments 
for gender specific healthcare services at the VA? Yes?
    Mr. Atizado. Mr. Coffman, thank you for that question. I 
think that ties back to your original question. I think for the 
most part VA is doing better. It is doing better as a matter of 
policy. I think the field is really trying to catch up to what 
the policy that comes out of VA headquarters is attempting to 
instill in the healthcare system.
    As far as access to care, yes, at VA facilities, especially 
for those that do not have the critical number of women veteran 
patients, access at that facility can be a little, not as good, 
it could be much better. But what we do find out is they are 
much more apt to be able to provide that service in the 
community if they cannot provide it in the VA facility.
    Mr. Coffman. Okay. Thank you, Mr. Chairman. I yield back.
    Dr. Benishek. Mr. O'Rourke.
    Mr. O'Rourke. Mr. Chairman, I would just like to join my 
colleagues in thanking the representatives from the veterans 
service organizations for being here. I think they were very 
clear in their comments on the proposed legislation. And I 
would just join my colleagues in asking that where we find 
fault in how we are trying to achieve accountability, that we 
offer improvements and certainly not lose the urgency of 
addressing some of these issues and boldly working to change 
the culture and the performance and outcomes for veterans that 
we see at the VA today. But I know that that is what you are 
interested in doing and have made proposals to do that. So I 
thank you.
    And I want to thank the chairman for his efforts to ensure 
accountability and my colleagues for the bills that they have 
proposed. And I think we are doing our best to strike that 
balance in ensuring accountability without being punitive and 
working constructively with the VA, and ensuring that 
ultimately that we serve the veteran and see improved 
performance outcomes. And I think that is what we are all 
interested in doing. And I hope, and I am looking forward to 
hearing the testimony of the VA, I hope that is the spirit in 
which the VA approaches this issue. Because the VSOs, the VA, 
the members of Congress, this is the team that is going to be 
able to fix this. And we need to make sure that each partner is 
willing to do that. So thank you and the ranking member for 
putting this hearing together today.
    Dr. Benishek. Thank you. If there are no further questions, 
the second panel is now excused. And I will welcome our third 
and final panel to the witness table. Joining us from the 
Department of Veterans Affairs is Dr. Madhulika Agarwal, the 
Deputy Under Secretary for Health for Policy and Services; and 
Janet Murphy, the Acting Deputy Under Secretary for Health for 
Operations and Management. They are accompanied by Jessica 
Tanner, General Attorney with the Officer of General Counsel. 
Dr. Agarwal and Ms. Murphy, you are recognized for five 
minutes.

STATEMENT OF MADHULIKA AGARWAL, MD, MPH, DEPUTY UNDER SECRETARY 
      FOR HEALTH FOR POLICY AND SERVICES, VETERANS HEALTH 
ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND JANET 
 P. MURPHY, MBA, ACTING DEPUTY UNDER SECRETARY FOR HEALTH FOR 
OPERATIONS AND MANAGEMENT, VETERANS HEALTH ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY JESSICA TANNER, 
GENERAL ATTORNEY OFFICER OF GENERAL COUNSEL, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

                 STATEMENT OF MADHULIKA AGARWAL

    Dr. Agarwal. Good morning, well it is almost good 
afternoon, Chairman Benishek, Ranking Member Brownley, and 
members of the subcommittee. We appreciate your continued 
efforts to support and improve veterans healthcare. Thank you 
for the opportunity to testify on the bills on today's agenda 
and to discuss their impact on VHA's healthcare. Joining me 
today is Ms. Janet Murphy, Acting Deputy Under Secretary for 
Health for Operations and Management; and Ms. Jessica Tanner, 
Attorney in the Office of General Counsel.
    Mr. Chairman, we appreciate the committee's attention to 
many subjects that are important to veterans. We support many 
of the bills on the agenda today, beginning with the Medal of 
Honor Priority Care Act which will ensure responsive and 
appropriate healthcare for Medal of Honor recipients.
    We support H.R. 421, the Classified Veterans Access to Care 
Act. Currently veterans who serve in classified missions can 
receive mental health services with VA medical treatment 
facilities safely and at minimal to no risk to national 
security. We agree that it would be beneficial to establish 
standards and procedures to ensure that veterans have access to 
mental healthcare in a manner that accommodates the veteran's 
obligation to not improperly disclose classified information.
    We agree that the Newborn Care Improvement Act should 
provide additional inpatient treatment for a full term newborn 
facing complications such as fever or respiratory distress 
after delivery. This support comes with a caveat for additional 
resources that are going to be needed to implement the bill.
    We support the Veterans Credit Protection Act. The 
reporting required in this bill would result in improved 
relationships between veterans and providers by decreasing 
negative reporting of financial information on a veteran's 
credit history as a result of delayed payment by VA. It will 
also improve timeliness of payments to providers, decrease 
interest payments by VA, and protect veterans credit ratings. 
We also support the draft bill to amend the role of podiatrists 
in the VA.
    At this time the department is still reviewing H.R. 2914, 
H.R. 2915 and the draft bill on construction reform. We would 
be glad to follow up with your staff to address any technical 
concerns.
    In reference to H.R. 2464, the Demanding Accountability for 
Veterans Act of 2015, I would like to state that the vast 
majority of VA employees who come to work do their best serving 
veterans everyday. Ninety thousand of the 300,000 VA employees 
are veterans themselves, which is the largest percentage of 
veterans employed by any civilian agency. Accountability 
remains a top priority for the Secretary and we would want to 
make sure that these accountability bills have no unintended 
consequences. This bill may affect the Secretary's ability to 
manage effectively and could adversely impact the collaborative 
process between the Inspector General and the Secretary.
    VA supports the intent of H.R. 353, Veterans Access to 
Hearing Health Act of 2015, however we feel that this bill is 
unnecessary because the Secretary already has the authority to 
appoint other specialists such as licensed hearing aid 
specialists and to prescribe standards for these specialties. 
Similarly, the Secretary has the authority to accomplish the 
goals of H.R. 1688. VA currently has the ability to create 
additional optometry residency positions and therefore 
legislation is not needed.
    As for the Women Veterans Access to Quality Care Act of 
2015, we support the intent of the bill and are taking several 
actions already to address the issue of the structural 
standards. VA regularly outperforms the private sector in both 
cervical cancer screening and the breast cancer screening, and 
has significantly improved internally in closing the gender 
disparity in areas such as lipid screening, depression 
screening, and immunizations.
    H.R. 359, the Veterans Dog Training Therapy Act, we value 
the identification of effective treatment modalities to address 
PTSD and other post-deployment mental health symptoms. However, 
VA has significant concerns about the provisions in this bill. 
These concerns are detailed in our written testimony.
    Thank you, Mr. Chairman and Ranking Member for the 
opportunity to testify before you today. My colleagues and I 
are pleased to answer any questions that you all may have.

    [The prepared statement of Madhulika Agarwal appears in the 
Appendix]

    Dr. Benishek. Thank you, Dr. Agarwal, I appreciate it. I 
will yield myself five minutes for a few questions. Apparently 
the VA failed to provide views of our cost estimates for many 
of the bills on today's agenda, including Chairman Miller's 
draft bill on construction and both of Ranking Member 
Brownley's bills. When can the subcommittee expect to receive 
the official views and cost estimates for these bills?
    Dr. Agarwal. Chairman, that is a good question. They are 
currently under review in the department itself and as 
expeditiously as we can we will get it to you.
    Dr. Benishek. Is there a date you have in mind?
    Dr. Agarwal. I----
    Dr. Benishek. Because we always try to get, you know, Dr. 
Agarwal, a specific date.
    Dr. Agarwal. You know, sir, we will do our best to get it 
out as early as we possibly can. I could not give you a date.
    Dr. Benishek. All right. Regarding my bill, 2464, the 
Demanding Accountability for Veterans Act, I believe that the 
VA's objections are a little overstated. I understand your 
concerns about how the bill will impact situations where the 
department does not concur with the IG and/or the IG's finding 
involve other federal agencies with the VA. Would you be 
willing to work with me to provide technical assistance to 
address these issues?
    Dr. Agarwal. Yes sir, we will.
    Dr. Benishek. Can you tell me how often the VA requests 
changes to draft IG reports?
    Dr. Agarwal. VA recognizes the independent role of the OIG 
and the draft changes, there are no changes made to the 
recommendations except to provide technical correction if that 
is needed or necessary. So it is not a matter of how many times 
we change the draft. We never do. The IG's recommendations 
remain the IG's recommendations. We only provide some technical 
corrections if they are needed.
    Dr. Benishek. All right. How exactly do you think that the 
Demanding Accountability for Veterans Act would negatively 
impact the relationship between the VA and the Inspector 
General?
    Dr. Agarwal. So as I stated earlier, Chairman, most, I 
would say the vast majority of our employees continue to serve 
the veterans every single day with great integrity and care. 
The concern that has been expressed in relationship to the bill 
is the technical corrections that are necessary sometimes 
before any misinformation is communicated further down the 
road. And it is essential that----
    Dr. Benishek. Well, I guess I do not understand that. What 
does that mean? Misinformation communicated down the road, what 
is that? I do not understand that.
    Dr. Agarwal. I, let me see, for Ms. Murphy, if you could 
provide some examples?
    Ms. Murphy. Thank you, Chairman Benishek. So I think what 
Dr. Agarwal is talking about is when we get the draft report we 
check, we look to see if there are misstatements. So for 
example, it might be 1,000 patients and when we go back and 
look at our data it is 859. I mean, and it is those kinds of 
changes. The IG's recommendations are their recommendations. 
And you know, they do not change them for us. But we sometimes 
can provide information to clarify, strengthen the 
recommendations, make them, make them more complete. And so 
those are the kinds of things that we try to work with the IG 
on.
    Dr. Benishek. All right. Well you know, and my point of 
this legislation, which you have heard me speak of many times, 
is that we have a very difficult time here sometimes finding 
why something has not been implemented when you yourselves know 
that IG reports are often concurred with but not really 
implemented, the changes that are recommended in the IG report. 
And we want to move that process forward and have the changes 
that the IG recommends implemented on a timely basis and have 
someone's name we can identify who is responsible for that. Do 
you have a strong aversion to that idea, Dr. Agarwal?
    Dr. Agarwal. No, sir. Every employee is accountable and 
should be held accountable for their actions because we have a 
responsibility towards the organization and the veterans that 
we serve. But in many instances it is not one single individual 
who is responsible for some outcome.
    Dr. Benishek. Well, but maybe there should be, though. That 
is the whole point of this. Because otherwise they all raise 
their hands and say it was not my fault and then nobody ends up 
being accountable. Do you understand?
    Dr. Agarwal. And there are instances when it is necessary 
that there is only one entity or one individual who is 
responsible, then that person is, there are actions that are 
taken subsequently.
    Dr. Benishek. It has been difficult for us to determine 
that. I am sorry. I am out of time, doctor. But I am going to 
yield to Ms. Brownley. Maybe she will be able to follow up, 
thanks.
    Ms. Brownley. Thank you, Mr. Chairman. And thank you both 
for, well three of you, for being here this morning. And you 
know, I just wanted to speak to the two bills that are, I have 
put forward that we have heard about today in the hearing. And 
I understand that you have not weighed in on either H.R. 2914 
or H.R. 2915. But just wondering if you could just comment 
briefly about the intent of each one of those? And if you 
generally agree or generally disagree?
    Dr. Agarwal. I will comment on H.R. 2915 and I will ask Ms. 
Murphy to comment on H.R. 2914. With H.R. 2915, which is an 
amendment to the Clay Hunt in focusing on women's mental health 
and suicide prevention, we agree with the intent. In fact, we 
are going to be doing the evaluation as part of the Mental 
Health Act. And we believe that with that intent we can 
certainly see on how that can be accomplished.
    Ms. Brownley. And H.R. 2914, Ms. Murphy.
    Ms. Murphy. Thank you, ranking member. The, I will just 
start by stating that we will take all the help we can get on 
leases. It is a process now that we struggle with. I have 
something to do with leases everyday, where someone is having 
difficult getting leases through. We have, so it is a 
complicated process.
    I would also say that Deputy Secretary Gibson has stood up 
a VHA-wide, VA-wide, excuse me, including VHA, process to 
really look at our lease process from start to finish. And we 
would really welcome working with you on this bill to see where 
we could provide technical assistance to help us get the help 
we need with our leasing process. It is partly on us but it is 
also partly a function of the current process and the 
requirements that we are, the hoops that we are required to go 
through for our leases.
    Ms. Brownley. Do you know what Secretary Gibson's timeline 
is?
    Ms. Brownley. Deputy Secretary Gibson? We have been meeting 
for about the past month. I do not know the exact timeline but 
he always likes things done fast. So I am presuming he has got 
a month timeline or thereabouts but I know he is all about 
getting it done fast.
    Ms. Brownley. Well I welcome your offer and would like very 
much to work with you. Because I do feel like we are, I think 
we are, you know, we are making progress in terms of what some 
of our objectives are of wait time, access to healthcare, so 
forth and so on. We understand where the needs are, we have 
identified where the needs are. And we have got a process that 
is just standing in the way where we had a process that seemed 
to work. And this was supposed to be the improved upon process 
but yet it is just putting us further behind. So I appreciate 
that.
    I just wanted to comment briefly on H.R. 359, too, the Dog 
Training Therapy Act. And you know, I know that we are waiting 
for data to be able to make some decisions on this. I guess, 
you know, the first question would be when do you anticipate 
having results of a research study so that we can finally 
formulate and move forward on this decision? And I, you know, 
my comment would be is that I think all of us are always 
pressing for, you know, data driven, decision making here, up 
here on the dais. On the other hand, you can get to a place 
where you have the data or you let the data stand in the way 
from what a common sense solution might be for our veterans. 
And we talk a lot about alternative options for folks who are 
suffering from mental health. And I think we could all agree 
that this is common sense, that working with dogs is a very 
positive thing for some of our veterans and for the veterans 
that it works for it works for very, very well. So if you could 
just answer, you know, what your intention is in terms of 
moving forward on this concept?
    Dr. Agarwal. Ranking member, as you probably are aware 
there were several complications that took place in the pilot 
in Tampa with the paired dog study related to the service dogs 
and PTSD. And so right now there is a multi-site study going on 
in three places where the dogs are being paired as service dogs 
and the emotional support dogs. And the outcomes we believe 
would be available, the results would be available in three 
years.
    Similarly there is a Department of Defense study which is 
about the dog training as a treatment modality for veterans 
with PTSD and other mental health related conditions. That is 
something that the Department of Defense is doing and we, I do 
not know exactly when to expect the results from that 
particular study.
    Ms. Brownley. Well, thank you. And I just would comment I 
think that there is plenty of data out there, probably outside 
of the VA there are a lot of nonprofits across the country that 
are providing dogs and utilizing dog therapy. And I just think 
that if we are going to wait three more years, you know, to 
make a determination on this, is just, you know, I think that 
we should find a way to really streamline this. And it has been 
something that I think our veteran community really wants, 
people believe in it, and we should move forward on it. So 
thank you, I yield back.
    Dr. Benishek. Thank you, Ms. Brownley. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Dr. Agarwal, if I 
said it right, can you tell me why the Department of Veterans 
Affairs, why the leadership insists on being involved in 
construction management going forward after the incredible 
debacle in my congressional district with a VA hospital that is 
now projected to be over $1 billion in cost overruns? I mean, 
with all the problems that we have identified in this committee 
on the healthcare side, why do you not want to focus on that? 
Instead of something you obviously, that the Department of 
Veterans Affairs obviously cannot do?
    Dr. Agarwal. So we certainly appreciate all the help that 
Congress, you and others have been providing our top leadership 
in helping manage the construction issues, especially in 
Denver. I do not know very much about construction. But I will 
ask and see----
    Mr. Coffman. Well nobody in the department does so you are 
not alone.
    Dr. Agarwal. I certainly probably am the least informed 
about----
    Mr. Coffman. You might know more than the folks that were 
managing the project in Aurora, but go ahead please.
    Ms. Murphy. Well, I did renovate my kitchen, sir.
    Mr. Coffman. Oh, well I do not want to know how much it 
cost.
    Ms. Murphy. But truthfully, I think we would agree that 
some of the projects have been less than well managed. But I 
would say that hearkening back to Deputy Secretary Gibson's 
testimony at the recent hearing where he mentioned that we have 
an independent group looking at our construction process. That 
report will come to Congress at the end of September. I think 
it will help us understand where our issues are.
    I think we have also put some things in place in the 
meantime that will help us, just things that you would commonly 
find in the industry. Thirty-five percent of design done before 
we give out a dollar. We have a construction advisory group, a 
project review board, it is called, that is helping us look at 
our projects. So I think better oversight, better management of 
the projects, bringing in more experts to help us, engineering, 
medical equipment experts, so that we are planning these things 
early on in the process. So I guess I would say there is 
information coming to Congress about our construction process 
from the independent third party and I think that will be 
revealing in terms of where we need to go.
    Mr. Coffman. Well I would ask you to take a message back to 
your leadership, and that is that the Veterans Administration 
needs to focus on what their core responsibilities are, and 
that is taking care of our nation's veterans. Squandering $1 
billion on a single project that was supposed to cost $600 
million is simply inappropriate and is offensive to our 
nation's veterans. Because that could have gone to caring for 
our veterans. That could be, that could be in healthcare, or 
that could be in providing benefits for our veterans in terms 
of making sure that they get the care and the benefits that 
they deserve through their military service. And so, and the 
fact, and how many people have been fired in the construction 
management section besides one whistleblower? How many people 
have been fired in the Veterans Administration for, I mean, if 
we look at the GAO report for 2013, this is not a new issue. I 
mean, in 2013 it was identified that not only was the Aurora 
project hundreds of millions of dollars over budget and years 
behind schedule, but every major construction project that the 
VA was doing at that time was each hundreds of millions of 
dollars over budget and each years behind schedule, the four 
projects that were identified there. And at that time VA 
leadership took no action in terms of correcting its problems. 
And now the American people are somehow supposed to trust you, 
the Veterans Administration know that, oh, everything is going 
to be okay. Everything is not going to be okay. Please tell me 
how many people have been fired.
    Dr. Agarwal. I do not know the answer to that, sir.
    Mr. Coffman. Can you get that information back to the 
committee?
    Dr. Agarwal. We could take it for the record.
    Mr. Coffman. I believe the answer is zero. The answer, 
except for one whistleblower, the answer is zero outside of 
that. And if not for the whistleblowers in the VA, the rank and 
file, men and women who really care about serving our nation's 
veterans, let me tell you this committee would not be aware of 
all the problems that have come forward in the VA. It is that 
rank and file who truly want to care and some in leadership, 
but mostly just the rank and file. Men and women who work in 
the VA who fundamentally care about taking care of our nation's 
veterans. With that, Mr. Chairman, I yield back.
    Dr. Benishek. Thank you, Mr. Coffman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. For Dr. Agarwal, the 
concerns that you have about the chairman's bill Demanding 
Accountability for Veterans Act are understandable. I would 
like to know what the counter proposal is, though. Because it, 
I think it is easy and fair enough to point out from the VA's 
perspective weaknesses in a proposal to address accountability. 
But what is more important is actually getting that 
accountability. So what is the VA's proposal to address this 
issue that Dr. Benishek is trying to get at?
    Dr. Agarwal. Congressman, let me attempt to answer a fairly 
complex question as briefly as I can. I think it is very clear 
that we lay very, clarify all expectations of our employees up 
front, especially when we recruit them as to what is expected 
of them. And I know that it is done on somewhat, I would hope 
on a routine basis, but I think we have to be very consistent 
in how we sort of establish that. We need to have very specific 
and measurable goals that our employees understand on how they 
are going to help serve the veterans and achieve the goals of 
the department. We need to make sure that all the barriers that 
they face are eliminated and that is the support of the 
management and leadership in helping solve that.
    I am not sure if I am exactly answering your question the 
way you have intended it to be. But I think those are some of 
the very specific things that we can begin to do.
    Mr. O'Rourke. Yes, I think for me at least the larger point 
is that I believe I have heard the Assistant Secretary and the 
Secretary both acknowledge the need for greater accountability 
within the VA. And that is important, admitting that you have a 
problem. But then the very next important step is detailing a 
plan to resolve that problem that has a defined goal and end 
date so that we can in turn know what the progress the VA is 
making towards that goal.
    To date I have not heard that. Or at least, I have not 
heard it succinctly and in a way that I can understand and 
communicate to the veterans that I represent. And in the 
absence of that I think proposals like the one presented by our 
chairman are very compelling. And I think there is a natural 
tension between the VA and its oversight committee, or this 
committee which has oversight responsibility and authority and 
that is probably healthy. When it becomes adversarial and the 
proposals that we make are rejected, again, perhaps for good 
technical, legal, and reasons of function and form within the 
VA, and are not then answered with a proposal from the VA 
itself, it makes it very hard not to move forward with 
something in the absence of anything else from the VA.
    So I understand your, the answer that you just gave. But it 
is not a proposal or a plan that I can take back to my veterans 
who ask me, hey Beto, what are you guys doing about the VA? 
There is a steady drumbeat of unfortunate news from the VA, not 
because we have on the whole bad employees. And I agree with 
you. I think the vast majority of those who work for the VA are 
spectacular people doing very difficult jobs who could be 
making much more doing something else but they do it because 
they share that same mission that you and I have, which is to 
serve that veteran who has served this country. But we do have 
some people who are in the way of progress or who are actively 
stopping our ability to serve veterans and those people need to 
be held accountable. And so I think that is what we are looking 
for.
    Let me quickly move to a statement that Ms. Murphy made in 
answer to Ms. Brownley's question about needing all the help 
you can get when it comes to leases. Beyond what Ms. Brownley 
has offered, do you have any other requests from Congress that 
would help you and give you additional statutory authority that 
you need to be able to execute leases more quickly and more 
effectively, and get more facilities online and more veterans 
treated sooner rather than later?
    Ms. Murphy. Thank you, Congressman. I am not an expert on 
leases. I am an expert in trying to get healthcare services up 
and running. So my interaction with leases is at that nexus. I 
certainly think we could get our really skilled and informed 
lease people with you and with this group to help figure out if 
there are other things that we need besides what Ranking Member 
Brownley has proposed. I mean, obviously we want to make sure 
that what we end up with actually works, and I think that is 
your goal too, and actually facilitates the process. So I would 
love to come back and provide more technical assistance and 
additional input that you might need. I am very glad to do 
that, and get the right people here to do that.
    Mr. O'Rourke. Mr. Chairman, let me just conclude by saying 
that I appreciate that answer. I look forward to working with 
you. I also appreciate your answer on the question about the 
Construction Reform Act and that the Secretary is going to be 
coming forward with something in September, at least having 
more information that can help us better understand the issue.
    We are not likely to get a major facility in El Paso in 
part because of the royal screw up in Colorado, in Louisiana, 
in Nevada, in Florida. I mean, hundreds of millions of dollars, 
over $1 billion in overage in all of those projects. And in 
part because of that being able to execute these leases with 
willing partners in communities like El Paso that are sorely 
underserved and have some of the worst performance metrics in 
the country are incredibly critical for our success. So I just 
want to let you know that you have a partner in our office in 
getting those leases done. Because if we do not that veteran in 
El Paso and other parts of the country will not be served. So 
we look forward to working with you on that. And with that I 
yield back to the chairman.
    Dr. Benishek. Thank you, Mr. O'Rourke. Does anyone have any 
other questions they would like to ask? Well, I think we can 
excuse the third panel then. Thank you very much for coming 
this morning.
    I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material. With no objection, so ordered.
    I would like to once again thank all of our witnesses and 
audience members for joining this morning and this afternoon. 
This hearing is now adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Prepared Statement of Rep. Walberg Testimony for Medal of Honor 
                      Priority Care Act (H.R.272)

    Chairman Benishek, Ranking Member Brownley and Members of the 
Subcommittee, I thank you for allowing me the time to speak this 
morning in support of my legislation, H.R.272, the Medal of Honor 
Priority Care Act of 2015.
    As the Members of this Committee are well aware, the Congressional 
Medal of Honor is the highest award for valor which can be bestowed 
upon an individual serving in the United States Armed Forces and is 
awarded to soldiers who have displayed conspicuous gallantry and 
intrepidity at the risk of life above and beyond the call of duty. The 
Medal of Honor is a distinguished award given to a select few. Less 
than 3,500 have been awarded, 16 awards have gone to soldiers who 
fought in the recent conflicts in Iraq and Afghanistan. Currently there 
are only 79 living Medal of Honor recipients.
    My state of Michigan is privileged to have two living recipients, 
Corporal Duane E. Dewey and Private First Class Robert E. Simanek. Both 
received the decoration for their heroic action in the Korean War, and 
hearing of their harrowing stories of bravery has reminded me of the 
sacrifice American soldiers are willing to make to protect their 
comrades and their country.
    Medal of Honor recipients deserve our utmost appreciation, and I 
believe the small portion of our servicemembers who have gone above and 
beyond the call of duty and earned the highest honor in our nation's 
Armed Forces have earned the right to be placed in the top priority 
group to receive their healthcare benefits. I'd be remiss if I did not 
mention the idea for this legislation came from a veteran who lives in 
my district and works with the veteran community.
    All veterans deserve access to the healthcare they have earned, but 
as you all know, the VA uses a priority system to determine eligibility 
for these healthcare services. Some of the factors that will affect a 
soldier's priority group ranking are whether the soldier has a service-
connected disability, whether they were a former prisoner of war, the 
time and place of service, as well as income level. Currently, Medal of 
Honor recipients are in Priority Group 3.
    This bill is very similar to legislation approved by this committee 
during the 113th Congress, which was supported by the VFW, Vietnam 
Veterans of America, IAVA, the American Legion, and AMVETS. I'm proud 
to once again have the support of my colleagues from both sides of the 
aisle on this bill.
    I thank the Chair for permitting me to appear before the 
Subcommittee today.

                                 ---------

                  Prepared Statement of Steve Stivers

    I want to thank Chairman Benishek for including my bipartisan bill, 
the Veterans Dog Training Therapy Act, in today's legislative hearing.
    As the Committee Members are well aware, it is estimated that 22 
current and former service members commit suicide each day. This is a 
tragedy that requires immediate action and I want to commend the 
Committee Members for their commitment to addressing this matter.
    It is known that post-traumatic stress disorder (PTSD) contributes 
to suicide among the veteran population and Congress has taken steps to 
improve treatments of the condition. However, every individual is 
unique and responds differently to available therapies and treatments.
    That is why I introduced the Veterans Dog Training Therapy Act with 
my colleague and good friend, Tim Walz. Our bill seeks to expand access 
to an alternative therapy that has been proven effective for many 
veterans who suffer from the invisible scars of war.
    Specifically, our legislation would establish a service dog 
training pilot program at 3-5 VA facilities as selected by the VA 
Secretary. Results of the pilot would be studied for consideration of 
expanding the program. Under the pilot program, veterans suffering from 
PTSD would be connected to service dog training organizations. These 
veterans would learn useful occupational skills while training service 
dogs. Upon completion of their training, each dog would be provided to 
a disabled veteran--enabling veterans to help other veterans.
    This program is not made from scratch; it is an almost identical 
model to the successful service dog training program conducted by the 
non-profit organization Warrior Canine Connection at several Department 
of Defense medical facilities and one VA Hospital location. Veterans 
enrolled in this program witnessed significant improvements in PTSD and 
TBI-related symptoms. It is also important to note that some of the 
wounded warriors who benefited from the service dog training therapy 
program had not been responding successfully to other treatment 
options.
    The effectiveness of service dogs in treating PTSD and TBI-related 
symptoms is supported by preliminary research from Kaiser Permanente, 
which has shown that veterans who own service dogs have fewer symptoms 
of PTSD and depression, better interpersonal relationships, a lowered 
risk of substance abuse and better overall mental health.
    It should also be noted that Congress directed the VA to conduct a 
research study on the efficacy of service dogs in treating these 
injuries in the 2010 NDAA, which was signed into law in September of 
2009. Since then, the agency has blundered so badly in the design and 
implementation of its own study that research results are not expected 
until 2019--10 years after the study was ordered by Congress. These 
veterans cannot wait any longer.
    I do not claim that my bill will completely solve PTSD. But it is 
clear that many veterans have been helped by service dog training 
therapy programs and that it has promising potential to significantly 
aid in the treatment of many individuals who are struggling with 
invisible wounds in the VA system --brave men and women who are not 
responding to other treatment methods.
    Lastly, psychological conditions like PTSD are not new. These 
conditions have confronted American soldiers returning from all wars. 
We must address this issue now so that we can end the current suicide 
epidemic and to ensure that the best treatments are available for 
soldiers returning from future conflicts.
    Again, I appreciate the Chairman for allowing me to testify today 
and holding this hearing.

                                 --------

                  Prepared Statement of Doug Collins,

    Chairman Benishek, Ranking Member Brownley, and distinguished 
members of subcommittee, thank you for the opportunity to testify on 
H.R. 423, the ``Newborn Care Improvement Act''. My legislation amends 
title 38, United States Code, to improve the care provided by the 
Secretary of Veterans Affairs to newborn children. I am very 
appreciative of the Subcommittee's consideration of this legislation.
    The motto of the Veterans Administration comes straight from 
Abraham Lincoln's Second Inaugural. He got the idea straight from 
scripture. So the challenge for us to ``care for him who shall have 
borne the battle, and for his widow, and his orphan,'' isn't a new one.
    Since September 11, 2001, more than a quarter of a million women 
have answered the call to serve. They've faced terrorism in the deserts 
and mountains of Iraq and Afghanistan. So in the 21st century, we must 
also consider she who shall have borne the battle.
    When she returns, what of her children?
    The finest military in the world is powered by men and women in 
their physical prime. The young women who decide to serve this country 
in the armed forces aren't immune from the same questions that all 
young women face about whether they pursue a career, a family, or both. 
Yet they are offered a healthcare system that for so many years has 
been designed to serve men.
    With the increasing number of female veterans, the VA must expand 
its care and services to meet their needs. Maternity care tops that 
list of needs, and I've offered one way we can help. In 2010, Congress 
passed and the President signed the ``Caregivers and Veterans Omnibus 
Health Services Act of 2010'' to provide short-term newborn care for 
women veterans who received their maternity care through the VA. Signed 
into law on May 5, 2010, this legislation authorized up to seven days 
of newborn care.
    On January 27, 2012, The Department of Veterans Affairs published a 
regulation officially amending VA's medical benefits package to include 
up to seven days of medical care for newborns delivered by female 
Veterans who are receiving VA maternity care benefits. The rule, which 
became effective Dec. 19, applied retroactively to newborn care 
provided to eligible women vets on or after May 5, 2011.
    Since this seven day authorization was enacted by Congress in 2010, 
we've learned more about the unique challenges facing female veterans 
and the changing trends in these veterans seeking maternity and newborn 
care from the VA. According to a study published in the Women's Health 
Issues Journal this year, from 2008-2012 the overall delivery rate by 
female veterans utilizing VA maternity benefits increased by 44 percent 
and a majority of the women using VA maternity benefits had a service-
connected disability.
    Just last week, the U.S. Navy announced it has tripled the amount 
of paid maternity leave for personnel in the Navy and Marine Corps. 
Effective immediately, 18 weeks of maternity leave will be available. 
Secretary Mabus stated in a press release that ``with increased 
maternity leave, we can demonstrate the commitment of the Navy and 
Marine Corps to the women who are committed to serve.''
    In the same way, unless Congress extends the authorization for 
length of newborn care coverage provided by the VA, there will be 
veterans who face difficult financial decisions and complexity in 
navigating insurance options at the same time that their newborn is 
fighting for their life.
    This is why I introduced H.R. 423--to demonstrate Congress' 
commitment to meeting the needs of female veterans by providing a 
little longer for their newborn. My legislation extends the 
authorization of care from seven days to 14 days and provides for an 
annual report on the number of newborn children who received such 
services during such fiscal year. Improved data on the trends in female 
veterans utilizing newborn care will help Congress and the VA better 
meet their needs in the years to come.
    Should this subcommittee place my legislation on their markup 
calendar, which I hope they do, I would request an amendment be made to 
add the reporting requirement to an existing report that the VA is 
already required to produce. Although it's vitally important that 
Congress and the VA have this data, I don't want VA to produce yet 
another report when instead we could add this requirement to an 
existing report.
    Some may ask why the VA should provide more newborn care coverage 
to female veterans than the average private sector employee would 
receive. These women have risked their lives to protect our nation. 
Just because they are no longer serving in active duty does not mean 
our responsibility to them ends. In fact, their service to our country 
may jeopardize the very lives of their future children and thus our 
responsibility to them is even greater. A recent study examined more 
than 16,000 births to female veterans. Having PTSD in the year before 
delivery increased a woman's risk of spontaneous premature delivery by 
35 percent, the research showed.
    ``This study gives us a convincing epidemiological basis to say 
that, yes, PTSD is a risk factor for preterm delivery,'' said the 
study's senior author, Ciaran Phibbs, PhD, associate professor of 
pediatrics and an investigator at the March of Dimes Prematurity 
Research Center at Stanford University. ``Mothers with PTSD should be 
treated as having high-risk pregnancies.''
    Premature infants often need long hospitalizations after they are 
born and are more likely than full-term infants to die. Those premature 
infants who survive may face long-term developmental problems. And 
unfortunately, the number of female veterans with PTSD is not 
insignificant. According to the VA, 20% of female veterans of the 
conflicts in Iraq and Afghanistan have been diagnosed with PTSD. And 
these are not just the female veterans serving in combat.
    I know what it's like to be the parent of a little baby who needed 
intensive medical care for an extended period the moment she was born. 
It's my hope that any new mother, who has given selflessly to her 
country, wouldn't have to worry about Congress standing in her way as 
she tries to give selflessly to her own child.
    Our goal should always be to provide the mother with the pre-natal 
care she needs to give her newborn the best chance of a healthy 
delivery with no post-natal complications. There are significant needs 
and challenges that a female veteran faces when returning home from the 
battlefield such as homelessness, sexual and physical abuse, and mental 
health conditions such as Post Traumatic Stress Disorder. And this 
legislation won't solve all of those great challenges. But my hope is 
H.R. 423 will give her a little peace of mind knowing her newborn will 
get some extra help from the VA and that Congress is committed to her 
and her family.
    In a focus group conducted on Women Veterans' Reproductive Health 
Preferences and Experiences and published by Women's Health Issues 
Journal in 2011, one Marine said, ``I can essentially say that I gave 
my reproductive years to the Marine Corps. And those are the years you 
can serve . . . You know, you do sacrifice and you say, well, ``mission 
first before a family mission,'' type of thing and the more I think 
about I think, you know, the VA probably should address that part of 
womanhood and have that understanding.''
    There are multitudes of ways that the VA must adapt to better meet 
the needs of female veterans. By increasing the authorization of care, 
we can ensure that Congress is not standing in the way of the VA 
seeking to do just that. Absent the legislative change made by H.R. 
423, the VA cannot provide more than 7 days of care. And I believe that 
is unacceptable.
    In closing, we owe it to our female veterans to expand and improve 
the healthcare services that the VA can provide them and their 
children. Female veterans face unique challenges and barriers, 
including very limited newborn care coverage. While the majority of 
female veterans who receive maternity care from the VA are able to 
return home with their newborn within the current seven day time frame, 
some cannot due to newborn health complications. It is these veterans 
and their children that need Congress' help today.
    Expanding the authorization of care from seven to 14 days will give 
these female veterans more time to make alternate arrangements and 
secure private or public insurance for their newborn's continued health 
needs.
    I thank the Chairman and Ranking Member for holding this hearing 
and I'm happy to discuss this legislation further with any of my 
colleagues. Thank you.

                                 ---------

                    Prepared Statement of Sean Duffy

    Good morning. Thank you, Chairman Benishek and Ranking Member 
Brownley, for holding this hearing today. I appreciate the opportunity 
to testify on behalf of H.R. 353, the Veterans' Access to Hearing 
Health Act. I introduced this legislation, along with Rep. Tim Walz 
(MN-01) and Rep. Raul Ruiz (CA-36), to help address the long wait times 
and lack of access our veterans are facing in regard to audiology 
services.
    Our aging and younger veterans returning from the battlefield are 
seeking help from the VA for hearing loss and tinnitus more than any 
other disabilities facing them today. Yet, the VA does not have the 
capability to keep up with demand for these services.
    A recent Washington Post article cited that since the VA scandal 
broke last year, the number of veterans on wait lists for appointments 
has actually increased by 50%. Audiology services are a major factor in 
the wait times veterans are facing. According to the VA, nearly half of 
all patients awaiting care are waiting for audiology services.
    Veterans, like my constituent Roger Ellison from Marshfield, should 
not be fighting the VA for care. Roger is 70 years old and a veteran of 
the Vietnam War. He suffers from hearing loss, but when he sought help 
from the VA, he was told he could not get an appointment for six 
months. Unfortunately, Roger couldn't wait that long, so he went to his 
local hearing aid specialist - and he was seen that day. Roger was 
willing to pay out of pocket for his hearing aids because six months 
was just too long to wait.
    Audiology services not only affect the older generation, but also 
the younger generation returning from overseas. Roger and thousands of 
other veterans are in this situation today because the VA is allowed to 
use only audiologists--and not other capable providers--to fulfill 
hearing services to veterans. While audiologists are a great resource 
for the VA and provide good service for veterans, there are not enough 
to keep up with the demand.
    Hearing aid specialists are a perfectly viable option and stand at 
the ready to help our veterans in need. Hearing aid specialists have 
gone through a 1-2 year apprenticeship training period, have completed 
a comprehensive written exam, and are certified by the state to test 
hearing, and fit and dispense hearing aids. They are qualified to 
support the specialized services of audiologists by fitting, adjusting, 
and making minor repairs to hearing aids. By allowing hearing aid 
specialists to serve in their licensed role at the VA, the current 
burden audiologists have of performing all hearing services will be 
lifted. With the provisions of H.R. 353 in place, VA audiologists can 
turn their attention to specialized cases and complex conditions, and 
people like Roger won't be waiting six months for hearing aids or 
simple adjustments.
    My legislation also asks for a detailed report from the VA on the 
timely access of hearing health services, the contracting policies in 
regard to providing services outside the VA, the staffing levels in the 
audiology department, and a description of performance metrics.
    H.R. 353 has the support of the National Guard, the Retired 
Enlisted Association, Veterans' Health Council, Vietnam Veterans of 
America, the American Academy of Otolaryngology, the Wisconsin American 
Legion Executive Committee, and 27 of our colleagues.
    As Americans, we can never repay our debt to veterans like Roger, 
but Congress can pass common-sense measures like H.R. 353 to help make 
their lives back home a little easier. I urge the Committee to pass my 
legislation quickly and appreciate your support today.
    I yield back the balance of my time.

              Prepared Statement of the Hon. Mike Coffman

    Thank you Chairman Benishek for holding this legislative hearing 
and including my bipartisan bill--the Women Veterans Access to Quality 
Care Act.
    Although the Department of Veterans Affairs has made some progress 
in recent years, the fact remains that the VA is a system largely 
designed for male veterans. A recent comprehensive study conducted by 
the Disabled American Veterans (DAV) entitled ``Women Veterans: The 
Long Journey Home,'' found serious gaps in almost every aspect of 
programs that serve women vets.
    In recent years the active-duty military has made incredible 
strides towards fully incorporating women into the ranks. Though more 
work needs to be done, these long-overdue changes in the Department of 
Defense have increased the pool of eligible recruits, raising the 
standards to make our military the most professional that our country 
has ever had. As more and more of these women leave military service 
and become veterans, it is critical that the VA quickly adapt its 
facilities and culture.
    The aim of my bill is to increase gender-specific access to care 
within the VA, improve healthcare outcomes for our women veterans, and 
improve VA's facilities to ensure they protect the privacy and dignity 
of all veterans.
    The need for this bill is largely illustrated simply by reviewing 
the rapidly changing demographic composition of the VA patient 
population:
    1. Between 2003 and 2012, the number of women veterans using VA 
healthcare nearly doubled.
    2. In 2012 women made up only 6.5% of the VA patient population, 
but are estimated to encompass over 10% by 2020.
    3. Meanwhile, nearly 20% of new recruits are women.
    The women veteran patient population also has unique 
characteristics when compared to the male VA population:
    1. The median age of a female patient in VA is 49 compared to 64 
for male patients.
    2. Only 13% of men within VA were 45 years old or younger compared 
to 45% of women.
    These are dramatic changes to the VA's patient population, and the 
former--almost exclusively male--VA healthcare system simply hasn't 
kept up with the changes.
    My bill addresses the VA's lapses in healthcare quality and access 
for its women patients in five ways:
    First, my bill requires the VA to establish standards to ensure VA 
facilities meet the specific needs of women and integrates those 
standards into its Strategic Capital Investment Planning process.
    The Government Accountability Office (GAO) found in 2010 that none 
of the VA hospitals it surveyed were fully compliant with the VA's own 
policies related to privacy for women veterans. Just to cite a few 
examples, the audit found that check-in desks were in busy mixed-gender 
areas and gynecological examination tables faced towards doorways. 
Additionally, despite VA requirements that gynecological exam rooms 
have immediately adjacent restrooms, often women were required to walk 
down long hallways in high-traffic, mixed-gender corridors to access 
restrooms.
    At a hearing in this room in April, I asked a panel of Veteran 
Service Organization (VSO) experts whether these conditions have 
improved in the past five years, and the Committee learned that these 
problems continue to persist nationwide.
    Second, my bill holds VA medical facility directors accountable to 
performance measures which include women's health outcomes and requires 
the reporting of those outcomes. As with many other areas in the VA, 
there is an incredible lack of accountability which is hindering true 
progress and reform.
    Third, my bill ensures the availability of OB-GYN services at VA 
medical centers and requires VA to conduct a pilot program to increase 
residency and graduate medical education positions. In 2010, nearly 
half of the women Veterans who used V-A healthcare had at least one 
reproductive health diagnosis. It is absolutely essential that these 
veterans have quick and reliable access to appropriate gender-specific 
care.
    Forth, my bill improves outreach to women veterans by requiring the 
VA to provide state veterans agencies with contact information for 
veterans. One of the DAV's findings in its report was that information 
on veteran programs and eligibility is often difficult to access and 
scattered across various programs or Web sites. Increasing outreach to 
women veterans though collaboration with VA state agency partners is 
vital.
    Finally, my bill mandates a new comprehensive GAO study of the VA's 
ability to meet the needs of women veterans, including an examination 
of wait times, gender-specific care availability, VA training, 
differences in health outcomes, and security and privacy within VA 
facilities.
    During my own military career, I have witnessed quite a number of 
challenges that the military has had to confront. Each time, it 
overcame the obstacles, and always emerged as a more effective fighting 
force. I have full confidence that the VA can do the same.
    I hope my bill can jump-start the cultural sea change required at 
VA to ensure our women veterans are provided the same benefits they 
earned in service to our nation just like their male counter-parts.
    I'm grateful for the support many of our nation's veterans and 
Veteran Service Organizations have provided for this bill, and I urge 
all of my colleagues on the Committee today to join me in this effort.

                                 ---------

     Prepared Statement of the Hon. Charles W. Boustany, Jr., M.D.

    Chairman Benishek, Ranking Member Brownley and Subcommittee 
Members:
    First, thank you to Chairman Benishek, Ranking Member Brownley and 
all Subcommittee members for inviting me to testify before you today. 
As the Committee considers reforms to Department of Veterans Affairs' 
operations, I appreciate the opportunity to speak on behalf of my 
legislation, H.R. 1862, the Veterans' Credit Protection Act.
    Unfortunately, the VA's long history of delayed payments has 
brought me here today. Too many veterans are forced to contact my 
office to resolve credit issues caused by the VA's refusal to pay 
claims for emergency medical care. When these brave Americans require a 
trip to the emergency room because they believe their lives are in 
danger, the last thing on their minds should be fear that the VA will 
fail to pay their claims.
    One such veteran, Mr. Al Theriot of Abbeville, LA, waited over two 
years for the VA to finally process and pay his emergency medical care 
bills, which the Agency only did after Mr. Theriot contacted my office 
and appeared on local television twice to describe his experiences. 
This is absolutely unacceptable.
    I submitted documentation from the VA to the Subcommittee in early 
June demonstrating the scale of this problem. To reiterate those 
findings, as of data provided to me in April 2015, the VA's Chief 
Business Office indicated that only 14% of emergency medical care 
claims originating from VISN 16, which includes my home state of 
Louisiana, were being processed within 30 days. In total, the data 
demonstrates a nationwide backlog of over $878 million.
    The Veterans' Credit Protection Act is an important step to rooting 
out the problems within the VA that caused this out-of-control backlog.
    First, my legislation mandates the VA set up a toll-free hotline 
for veterans to report credit issues caused by delayed emergency 
medical care claims. It also requires the VA to conduct outreach 
alerting veterans of how to resolve these issues. Too often, veterans 
tell me they cannot get in touch with the VA, or that the employees 
they speak with cannot adequately answer their questions.
    Creating a dedicated call line and ensuring the VA implements a 
better framework for communicating solutions with veterans is an 
absolutely necessary step toward eliminating the backlog.
    My bill also requires the VA to report annually to Congress on the 
Chief Business Office's effectiveness with respect to timely claims 
processing. Their report must include information on the number of 
veterans who have reported credit issues due to delayed payments, the 
number of proper invoices submitted, the amounts owed on those invoices 
and how long it took the VA to pay those claims.
    In addition to requiring the VA to report on the status of claims, 
H.R. 1862 aims to improve Chief Business Office operations by requiring 
the VA to examine comments made by medical providers regarding the 
claims processing system and delayed payments, and report these 
comments to Congress, along with a description of best practices to 
ensure timely claims payment in the future.
    No veteran should ever have to decide whether or not to sacrifice 
their health and safety to avoid a potential financial burden if the VA 
fails to pay for a trip to the emergency room. I sincerely thank the 
Subcommittee for your efforts to ensure better care of America's 
veterans, and for inviting me to be part of this important discussion.

                 Prepared Statement of Rep. Jeff Denham

    Despite making improvements in the backlog of veterans' care in the 
VA via the CHOICE Act, there remains long wait times for patients to be 
seen within the VA. Eye care clinics staffed by VA doctors of 
optometry, including residents, are among the busiest primary care 
settings in the veterans' healthcare system. As you know, lengthy wait 
times can make it more difficult and even discourage veterans from 
seeking care they need. H.R. 1688 is aimed at improving access to 
primary eye care in the VA by making a modest increase in the number of 
optometry residency positions in the VA. My bill seeks to amend the 
Choice Act by designating 20 of the 1,500 new graduate medical 
education residency positions to the field of optometry.
    Although, VA optometrists provided comprehensive eye exams and 
other essential care to more than 1.2 million veterans last year, the 
need for eye health and vision care is expected to grow further in the 
coming years. Serious eye trauma is the second most common injury among 
those who served in Iraq and Afghanistan, with 16 percent of all 
wounded service members experiencing problems ranging from distorted 
vision to blindness (according to the Armed Forces Health Surveillance 
Center). Additionally, the joint Department of Defense/Department of 
Veterans Affairs Vision Center of Excellence has reported that up to 75 
percent of all traumatic brain injury patients experience vision 
problems.
    The VA is the largest integrated healthcare provider in the country 
and plays a leadership role in defining the education of future doctors 
of optometry. Through its partnerships with affiliated academic 
institutions, the VA optometry residency program has grown to be the 
largest clinical optometry training program and accounts for 50% of the 
profession's residency training. Optometry residents are valuable 
members of the healthcare team; they can provide early diagnosis and 
treatment for such vision threatening conditions as diabetic eye 
disease and neurological disorders, preventing costly procedures and 
rehabilitation later. Also, optometry residents, as members of the 
primary care team of medical providers, screen and refer veterans for 
untreated hypertension, diabetes and other systemic diseases.
    These much needed primary health services are not available at all 
VA medical facilities and the demand outpaces the supply. Increasing 
the number of optometry residents at the VA is one way to enhance the 
VA's ability to address chronic patient care backlogs as well as train 
doctors of optometry in advanced practices. VA officials recently 
recognized the importance of eye exams in keeping veterans healthy and 
active in a March 2015 advisory they issued stating, ``The eye is the 
only place in the human body that a functioning nerve, arteries and 
veins can be viewed without cutting the body open. These are all 
evaluated during the eye examination and reveal a lot about a person's 
general health. Early signs of diabetes, hypertension, atherosclerosis 
and carotid artery stenosis are often detected with an ocular health 
exam, and lead to diagnosis and management of these life threatening 
conditions.''
    Since the VA established its first optometry residency in the 
1970s, the program has proven to be an especially cost-effective force-
multiplier to boost the eye care team and make veterans healthier and 
more engaged in their own care. I would appreciate your support on H.R. 
1688 to improve access to this important care for our veterans by 
adding 20 additional optometry residents to the VA over the next 10 
years.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

  The American Academy of Audiology and the American Speech-Language 
                              Association

    Regarding H.R. 353
    The American Academy of Audiology (Academy) and the American 
Speech-Language-Hearing Association (ASHA) respectfully submit this 
joint statement for the record in opposition to H.R. 353, a bill that 
would permit the VA to hire hearing instrument specialists to deliver 
hearing healthcare services that currently can be provided only by or 
under the supervision of a licensed audiologist. While we appreciate 
and support the intent of the bill's sponsors to ensure appropriate 
access to hearing health services by our nation's veterans, we do not 
believe that the legislation will accomplish this goal or address 
problems that may exist related to wait times for hearing aids or 
hearing healthcare services.
    Hearing loss is one of the top service related disabilities for 
veterans and requires complex and comprehensive treatment. While noise-
induced hearing loss is common, veterans frequently present with 
complex auditory and vestibular pathologies that may be exacerbated by 
tinnitus, traumatic brain injury, or post-traumatic stress disorder. 
This complexity is further intensified by the increased number of 
veterans with combat-related hearing loss.
    The provision of hearing aids is neither simple nor 
straightforward. As with all technologies, the technology of hearing 
aids is becoming increasingly more complex, and the options beyond 
hearing aids, such as streaming capabilities, direct audio input, or 
Bluetooth coupling, are becoming more numerous. Coupled with advances 
in understanding complex ear-brain interactions, the provision of 
hearing aids requires advanced education and training to effectively 
serve our veterans.
    Audiologists are doctoral-level professionals who are qualified to 
evaluate the effects of acoustic trauma and ear injuries on hearing, 
and to diagnose and treat tinnitus, hyperacusis, vestibular issues, 
auditory processing disorders, and hearing loss. Audiologists can 
determine appropriate sound amplification devices and systems as well 
as select, evaluate, fit and verify the performance of all 
amplification devices, including hearing aids. More importantly, 
audiologists are trained to determine the appropriate treatment program 
for hearing loss--which may or may not include hearing aids--and to 
evaluate the effectiveness of the treatment. The VA currently employs 
more than 1,100 audiologists.
    Hearing aid specialists are trained in the fitting of hearing aids. 
While some states require a college-level associates degree as a 
minimum educational requirement to become a hearing aid specialist, 
many states still require only a high school diploma. Further, there 
are no national standards or dedicated curricula that outline the core 
competencies of a hearing aid specialist. In its testimony before the 
committee last year on legislation similar to H.R. 353, the Veterans 
Affairs Administration expressed concern that the lack of standardized 
education for hearing instrument specialists could lead to fragmented 
hearing healthcare services and limit delivery of comprehensive care. 
Given the minimal training required to become a hearing instrument 
specialist in comparison to the rigor of training for an audiologist, 
this provider type is poorly equipped to deliver the level of care that 
veterans require. Veterans would not be well served by expanding the 
list of eligible providers to include hearing aid specialists. Indeed, 
we believe the legislation could result in a compromise in the quality 
of hearing healthcare services that already exists for veterans.
    Another career classification for hearing aid specialists as 
proposed by H.R. 353 is unnecessary and administratively burdensome. 
Hearing aid specialists can now be hired under the Health Aid and 
Technician Series 0640 of title 5. The level of education and training 
for hearing aid specialists is consistent with the knowledge, skills, 
and abilities of health technicians who work in VA audiology clinics 
under the supervision of an audiologist. Many VA audiology health 
technicians are hearing aid specialists. The VA also has the capability 
to contract services from hearing aid specialists ``where timely 
referral to private audiologists or other VHA facilities is not 
feasible or when the medical status of the veteran prevents travel to a 
VHA facility or a private audiologist''. VHA Handbook 1170.02. Section 
1170.02 defines the role of the audiology health technician, in part, 
to increase productivity by reducing wait times, to enhance patient 
satisfaction, and to reduce costs by enabling health technicians to 
perform tasks that do not require the professional skills of a licensed 
audiologist. The job of these technicians includes, for example, checks 
of hearing aids and other amplification devices, trouble shooting and 
minor repairs to hearing aids, ear molds and other amplification 
devices and electroacoustic analysis of hearing aids. No modification 
of existing law is needed for the VA to hire or contract with hearing 
aid specialists, consistent with their scope of practice.
    The Academy and ASHA are aware that the VA Office of Inspector 
General (OIG) report dated February 20, 2014, found that the VA was not 
timely in issuing new hearing aids to veterans or in meeting timeliness 
goals to complete hearing aid repair services. We are hopeful that the 
Veterans Access, Choice, and Accountability Act, enacted on August 7, 
2014, will help to address access to care issues that may exist within 
the VA. Our organizations stand ready to provide assistance to the VA 
and the committee in developing a sustainable and workable system that 
ensures quality care and outcomes to our veterans. To that end, we 
would propose that the committee consider granting the VA the authority 
to hire more audiologists. There is no shortage of audiologists seeking 
employment with the VA. We would also propose that the committee 
consider authorizing additional funding both to hire additional 
audiologists for the VA and to contract with private audiologists.
    The American Academy of Audiology is the world's largest 
professional organization of, by, and for audiologists. The active 
membership of more than 12,000 is dedicated to providing quality 
hearing care services through professional development, education, 
research, and increased public awareness of hearing and balance 
disorders.
    The American Speech-Language-Hearing Association is the national 
professional, scientific, and credentialing association for 182,000 
members and affiliates who are audiologists; speech-language 
pathologists; speech, language, and hearing scientists; audiology and 
speech-language pathology support personnel; and students. ASHA 
supports its members through professional development, research, 
advocacy and public awareness of communication, hearing and balance 
disorders.

                                 --------

              Children of Vietnam Veterans Health Alliance

    Chairman Benishek, Ranking Member Brownley, and other distinguished 
members of the subcommittee, thank you for the opportunity to share 
Children of Vietnam Veterans Health Alliance's stance on H.R. 353, 
before you today.
    Children of Vietnam Veterans Health Alliance (COVVHA) is committed 
to serving as a voice for the children of Vietnam veterans, including 
second and third generation victims of Agent Orange and Dioxin 
Exposures worldwide. We believe in empowering each other to hold the 
companies and governments responsible for causing so much devastation 
and suffering to our generations.
    On behalf of COVVHA, I am writing to express our appreciation for 
the House Veteran's Affairs Committee Subcommittee on Health's efforts 
on H.R. 353, which would increase veterans' access to hearing 
healthcare services by enhancing the Department of Veterans Affairs' 
(VA) ability to utilize hearing aid specialists.
    In a February 2014 audit of hearing aid services, the VA's Office 
of Inspector General found that new hearing aids were not being issued 
in a timely manner and that the VA was failing to meet its five day 
timeliness goal. Inadequate staffing was partially attributed to the 
delays in hearing service.
    It is particularly troubling that the VA has not created an 
appropriate staffing model to meet the ever growing need for hearing 
services amongst veterans. With hearing loss and Tinnitus continuing to 
be the most prevalent service-connected disabilities affected veterans 
who receive disability compensation, failure to adjust staffing is 
unacceptable.
    This legislation would allow the VA to hire hearing aid 
specialists--an ability the VA currently does not have the authority to 
do--and ask that the VA report back to Congress on an annual basis 
regarding wait times and the number of audiologists, hearing aid 
specialists and hearing techs hired by the VA. It truly is a common 
sense piece of legislation that would help deal with the current 
backlog faced by many of our nation's veterans.
    As you may be aware, COVVHA expressed our support for H.R. 353 in a 
letter addressed to Congressmen Duffy, Ruiz, and Walz on following the 
bills introduction in the 114th Congress and we continue to strongly 
support the bill. We believe that passage of this bill will help those 
Veterans in need of hearing aids, who are unable to access them due to 
physical limitations, long distances to VA facilities, and long wait 
times for appointments.
    Sincerely,
    Kelly L. Derricks,
    Founder and President,
    Daughter of Vietnam Veteran Harry C. Mackel, Jr., U.S. Air Force 
(deceased).

               International Hearing Society on H.R. 353

    Chairman Benishek, Ranking Member Brownley, and esteemed Members of 
the Subcommittee:
    International Hearing Society thanks you for the opportunity to 
comment on H.R. 353. IHS stands in full support of the bill, which 
would create a new provider class for hearing aid specialists within 
the Department of Veterans Affairs (VA), thereby enabling the VA to 
hire hearing aid specialists to help deliver hearing aid services to 
Veterans. The bill would also require the VA to report annually to 
Congress on appointment wait times and the utilization of providers for 
hearing-related services, which would make the VA's efforts to address 
the backlog more transparent and provide much needed data to inform 
Congress about Veterans' experiences in accessing hearing aid services 
through the VA.
    The International Hearing Society, founded in 1951, is a 
professional membership organization that represents hearing aid 
specialists, dispensing audiologists, and dispensing physicians, 
including the approximately 9,000 hearing aid specialists who practice 
in the United States. IHS promotes and maintains the highest possible 
standards for its members in the best interests of the hearing-impaired 
population they serve by conducting programs in competency 
accreditation, testing, education and training, and encourages 
continued growth and education for its members through advanced 
certification programs.
    The VA continues to see a dramatic rise in the demand for audiology 
services. According to the VA the number of unique Veterans that 
received VA audiology services in FY 2014 was 903,075, an increase of 
19% since 2011, with 52,138 new Veterans in 2014 alone (a 5.8% 
increase).\1/2\ The number of hearing aids ordered per year by the VA 
has also dramatically increased with more than 800,000 ordered in 
2014,\3\ up 34% since 2011.\4\ With tinnitus and hearing loss being the 
two most prevalent service-connected disabilities for veterans 
receiving federal compensation combined with the aging Veteran 
population, the demand will continue to rise. And despite clinical 
audiologist-hiring within the VA following a similar growth track with 
a 26% increase in staffing between 2011 and 2015,\5\ the high demand 
and subsequent backlog continue to affect the VA's ability to deliver 
timely and high-quality hearing healthcare.\6\
---------------------------------------------------------------------------
    \1\ David Chandler, PhD, ``Perspective from Department of Veterans 
Affairs,'' Presentation to the Institute of Medicine's Committee on 
Accessible and Affordable Hearing healthcare for Adults, April 27, 
2015. Lucille Beck, PhD, ``Meeting the Challenges of VA Audiology Care 
in the 21st Century,'' presentation to the Association of VA 
Audiologists, March 19, 2012.
    \3\ Chandler, ``Perspective from Department'' (see footnote 1).
    \4\ Beck, ``Meeting the Challenges'' (see footnote 2).
    \5\ Chandler, ``Perspective from Department'' (see footnote 1).
    \6\ Beck, ``Meeting the Challenges'' (see footnote 2).
---------------------------------------------------------------------------
    IHS and its members have a great deal of respect for VA 
audiologists. They provide a wide variety of critical services to our 
Veterans, including compensation and pension exams (over 151,000 
performed in 2012),\7\ programming and providing support for cochlear 
implant implantation and use, vestibular (balance) disorder services, 
tinnitus services, hearing conservation, hearing aid services and 
assistive device use, and advanced hearing testing. They also partner 
with several medical disciplines and are part of the Traumatic Brain 
Injury and Polytrauma teams, addressing balance and auditory issues. 
Further, VA audiologists also responsible for training and supervising 
audiology health technicians.
---------------------------------------------------------------------------
    \7\ VA Office of Inspector General, ``Audit of VA's Hearing Aid 
Services,'' February 20, 2014.
---------------------------------------------------------------------------
    The high demands on VA audiologists' time and expertise means that 
the VA is not currently able to meet all Veterans' needs for hearing 
healthcare services. To that point, in February 2014, the VA Inspector 
General released a report, ``Audit of VA Hearing Aid Services'' that 
found that ``during the 6-month period ending September 2012, VHA 
issued 30 percent of its hearing aids to veterans more than 30 days 
from the estimated date the facility received the hearing aids from its 
vendors.'' The audit also found that deliveries of repaired hearing 
aids to Veterans were subject to delay partially due to ``inadequate 
staffing to meet an increased workload, due in part to the large number 
of veterans requiring C&P audiology examinations.'' Further, in an 
April 2015 presentation to the Institute of Medicine's Committee on 
Accessible and Affordable Hearing healthcare for Adults, VA 
Rehabilitation and Prosthetic Services Department Chief Consultant, 
David Chandler, PhD, cited that ``nearly half of all patients awaiting 
care in the VA are for audiology services.''
    In a practical sense, as a result of the backlog and delays, many 
Veterans are experiencing long wait times for appointments, shortened 
appointments, and limited follow-up care and counseling. Hearing aid 
specialists are observing an increase in the number of Veterans who 
seek care in their private offices as well. These Veterans request 
hearing aid specialists' help with hearing aid adjustments and repairs, 
oftentimes because they do not want to wait for the next available VA 
appointment, which may be months away, or because the distance to the 
closest VA facility that offers audiology services is too far to 
travel. There are also many Veterans who choose to purchase hearing 
aids at their own expense through a private hearing aid specialist, 
rather than using the benefits they've earned and are entitled to, 
because they want to work with someone local who they trust and ensure 
their hearing aids are properly programmed, address their loss, and can 
be adjusted or repaired in a timely fashion. This relationship also 
enables them to obtain support from their hearing professional on 
demand, which is important to those with daily commitments or who are 
employed, and is especially critical to those who are new users of 
hearing aids. For a point of reference, in the private market, a new 
user would typically see their hearing aid specialist 4-6 times in the 
first three to six months to help them to adapt to a hearing world and 
optimize their success with hearing aids.
    Considering the safety risks involved as well as the impact 
untreated hearing loss can have on one's personal relationships and 
mental well-being, the VA needs an immediate solution to deal with the 
backlog and get Veterans the help they need. We also know that our 
working-age Veterans are anxious to contribute to society through 
employment, and properly fit and programmed hearing aids are necessary 
for their success in obtaining and maintaining meaningful employment.
    H.R. 353 provides the VA a much needed solution by creating a new 
provider class for hearing aid specialists to work within the VA. 
Hearing aid specialists can help the VA hearing healthcare team by 
providing hearing aid evaluations; hearing aid fittings and 
orientation; hearing aid verification and clinical outcome 
measurements; customary after care services, including repairs, 
reprogramming and modification; and the making of ear impressions for 
ear molds--just as they are currently authorized to do in the VA's fee-
for-service contract network.
    By adding hearing aid specialists to the audiology-led team to 
perform these specialized hearing aid services independently, 
audiologists will be able to focus on Veterans with complex medical and 
audiological conditions, as well as perform the disability evaluations, 
testing, and treatment services for which audiologists are uniquely 
qualified to provide--thereby maximizing efficiency within the system 
and supporting the team-based approach, a common model in the private 
market. Adoption of the hearing aid specialist job classification at 
this juncture will also be advantageous given the fact that VA 
Audiology and Speech Pathology Service management will be developing 
staff and productivity standards as a result of the Inspector General's 
audit and recommendations,\8\ and would be able to consider the use of 
hearing aid specialists as they develop their model.
---------------------------------------------------------------------------
    \8\ VA Office of Inspector General report ``Audit of VA's Hearing 
Aid Services,'' February 20, 2014.
---------------------------------------------------------------------------
    Also, by virtue of the report language in H.R. 353, which would 
shine a light on the VA's utilization of hearing aid specialists in its 
contract network, it is our hope that the VA would take better 
advantage of this willing and able provider type to help address the 
need for hearing aid services. To open up additional points of access, 
the VA can and should eliminate unnecessary policy restrictions that 
impact VA clinics' abilities to utilize hearing aid specialists in the 
contract network.

Hearing Aid Specialist Qualifications

    Hearing aid specialists are regulated professionals in all 50 
states and in the non-VA market, hearing aid specialists perform 
hearing tests and dispense approximately 50% of hearing aids to the 
public. They are licensed/registered to perform hearing evaluations, 
screen for the Food and Drug Administration (FDA) ``Red Flags'' 
indicating a possible medical condition requiring physician 
intervention, determine candidacy for hearing aids, provide hearing aid 
recommendation and selection, perform hearing aid fittings and 
adjustments, perform fitting verification and hearing aid repairs, take 
ear impressions for ear molds, and provide counseling and aural 
rehabilitation.
    Training for the profession is predominantly done through an 
apprenticeship model, an accepted and appropriate path given the hands-
on and technical skill involved in the profession. And while licensure 
requirements vary from state to state, in addition to the 
apprenticeship experience, candidates generally must hold a minimum of 
a high school diploma or an associate's degree in hearing instrument 
sciences. These requirements merely create a floor, evident in the fact 
that 87% of hearing aid specialists have obtained some college 
coursework, or an associates or higher academic degree.\9\ In nearly 
every state, candidates must pass both written and practical 
examinations, and in many states a distance learning course in hearing 
instrument sciences is required or recommended. Ultimately, when making 
hiring decisions, the VA will have the ability to determine which 
candidates meet their needs.
---------------------------------------------------------------------------
    \9\ International Hearing Society, Health Policy and Payment 
Survey, June 2013.
---------------------------------------------------------------------------
    Hearing aid specialists are already recognized by several Federal 
agencies to perform hearing healthcare services. The Standard 
Occupational Classification (SOC) identifies hearing aid specialists 
within the Healthcare Practitioners and Technical Occupations category 
(29-2092), and the Federal Employee Health Benefit program and Office 
of Policy and Management support the use of hearing aid specialists for 
hearing aid and related services. And while Medicare does not cover 
hearing testing for the purpose of recommending hearing aids (a policy 
that applies to all dispensing practitioners), hearing aid specialists 
provide hearing testing, hearing aids, and related services for state 
Medicaid programs around the country. Further, most insurance companies 
contract with hearing aid specialists to provide hearing tests and 
hearing aid services for their beneficiaries.
    Finally, evidence shows that there is no comparable difference in 
the quality and outcomes of hearing aid services based on site of 
service or type of provider (audiologist or hearing aid specialist). A 
well-respected industry study found that instead the best determinant 
of patient satisfaction is whether the provider used best practices 
like fit verification, making adjustments beyond the manufacturer's 
initial settings, providing counseling, and selecting the appropriate 
device for one's loss and manual dexterity.\10\
---------------------------------------------------------------------------
    \10\ MarkeTrak VIII: The Impact of the Hearing Healthcare 
Professional on Hearing Aid User Success, The Hearing Review, Vol 17 
(No.4), April 2010, pp. 12-34.

---------------------------------------------------------------------------
VA Strategies to Address Demand

    To address the demand for audiology and hearing aid services, the 
VA has been relying on the use of teleaudiology, audiology health 
technicians, and contract audiologists outside the VA setting. While 
IHS applauds the VA for its efforts to better serve the needs of 
Veterans, each of these strategies has its limitations. Though 
teleaudiology can make audiological services more available in remote 
settings, the cost of staffing and facilities are needlessly high, 
especially given that hearing aid specialists have fully-equipped 
offices, oftentimes operate in rural settings, and perform home and 
nursing home visits. Audiology health technicians have a very limited 
scope of duties, which does not include hearing aid tests or the 
fitting and dispensing of hearing aids, and they must be supervised by 
audiologists. Hiring hearing aid specialists to work as health 
technicians, as the VA currently does, significantly limits their role 
and effectiveness. Finally, increased reliance solely on audiologists 
may also limit access as there are not enough audiologists to fill the 
current and future need for hearing care services. In order to fill the 
need, the number of licensed audiologists needs to double in size 
within the next 30 years to 32,000; however only about 600 are entering 
the profession annually. Even the best case scenarios for increasing 
the number of graduates and reducing attrition still fall short.\11\
---------------------------------------------------------------------------
    \11\ Demand for Audiology Services: 30-Yr Projections and Impact on 
Academic Programs, Journal of the American Academy of Audiology, Ian A. 
Windmill and Barry A. Freeman, 24:407-416, 2013.
---------------------------------------------------------------------------
    In a June presentation, VA Deputy Chief Patient Care Services 
Officer for Rehabilitation and Prosthetic Services, Dr. Lucille Beck, 
PhD, cited several barriers to the delivery of hearing healthcare 
services for the VA, including ``Some VA sites having space constraints 
that challenge expansion of current audiology services'', ``Some 
veterans are very old or sick and cannot travel outside of the home'', 
and ``Lack of developed hearing healthcare networks and standards for 
VA to partner with the community.'' In each of these areas, hearing aid 
specialists, both internally and through their expanded use in the fee-
for-service network can help.
    As the federal government seeks to become more efficient and cost-
effective, we urge the Subcommittee to pass H.R. 353, which will round 
out the VA hearing healthcare team to mirror the private-market model, 
and increase Veterans' access to care, improve overall quality, and 
reduce cost. Again, using hearing aid specialists as health technicians 
is not the answer; this limits service delivery and underutilizes the 
skills and expertise hearing aid specialists can offer to the VA 
hearing healthcare team. Now is the time to embrace hearing aid 
specialists in the role they are trained and licensed to play to help 
meet the hearing healthcare needs of our Veterans, which will only 
continue to rise in the coming years.
    Thank you for your consideration and for your service to our 
Veterans. With questions, please contact government affairs director 
Alissa Parady at 571-212-8596 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4b5a4b584b4e536a43425943444c450445584d04">[email&#160;protected]</a>

 National Medical Association, Submitted by Lawrence Sanders, Jr., MD, 
                                  MBA

    On behalf of the National Medical Association (NMA), I am pleased 
to express our support for H.R. 353, aimed at improving hearing 
healthcare services and outcomes for our nation's Veterans. We 
acknowledge that Veterans' hearing healthcare needs could be better 
served through increased access to services and improved quality of 
care, and believe that hearing aid specialists can help accomplish this 
goal. Specifically, we support the inclusion of hearing aid specialists 
as a provider class within the Department of Veterans Affairs (VA). NMA 
also supports the lifting of restrictions that currently limit the 
circumstances in which the VA can contract with hearing aid specialists 
to provide hearing aid services to VA-eligible Veterans, and in doing 
so create parity with audiologists for the provision of VA-hearing aid 
services.
    Founded in 1895, the NMA is a national, professional and scientific 
organization representing over 30,000 African American physicians who 
are committed to improving the quality of health among minorities and 
disadvantaged people through its membership, professional development, 
community health education, advocacy, research and partnership with 
federal and private agencies. The NMA advocates for policies that would 
assure equitable and quality healthcare for all people.
    Hearing aid specialists are a member of the hearing healthcare 
team, comprised of otolaryngologists, audiologists, and hearing aid 
specialists; and are credentialed by all 50 states through licensure to 
perform hearing tests and provide hearing aid dispensing and fitting 
services. By integrating this team member into the VA provider system 
and utilizing the team-based approach, NMA believes service delivery 
can become more efficient and effective for the Veterans who are 
currently enrolled and those who will be transitioning into the VA 
system in the years to come. Further, increasing the external network 
of VA hearing healthcare providers to include hearing aid specialists 
would improve Veterans' access to convenient, comprehensive, and timely 
care; and would provide them the standard of care that currently exists 
in the public marketplace.
    It is for the aforementioned reasons, that the National Medical 
Association respectfully urges the Subcommittee and full Committee to 
pass H.R. 353 favorably. Thank you.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
